<html>
<title> - BEST INTERESTS OF THE CHILD? A REEXAMINATION OF THE DISTRICT OF COLUMBIA'S CHILD AND FAMILY SERVICES RELATIONSHIP</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





    BEST INTERESTS OF THE CHILD? A REEXAMINATION OF THE DISTRICT OF 
           COLUMBIA'S CHILD AND FAMILY SERVICES RELATIONSHIP

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2000

                               __________

                           Serial No. 106-266

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                                 ______
                    U.S. GOVERNMENT PRINTING OFFICE
74-760 PDF                  WASHINGTON : 2001
______________________________________________________________________


                    U.S. GOVERNMENT PRINTING OFFICE
70-750 DTP                  WASHINGTON :  2001
_______________________________________________________________________


                    U.S. GOVERNMENT PRINTING OFFICE
70-750 DTP                  WASHINGTON :  2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
      Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
                         DC area (202) 512-1800 
     Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                  THOMAS M. DAVIS, Virginia, Chairman
CONSTANCE A. MORELLA, Maryland       ELEANOR HOLMES NORTON, Washington, 
STEPHEN HORN, California                 DC
JOE SCARBOROUGH, Florida             CAROLYN B. MALONEY, New York
                                     EDOLPHUS TOWNS, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                    Melissa Wojciak, Staff Director
                 Howie Denis, Professional Staff Member
              Victoria Proctor, Professional Staff Member
                           Jenny Mayer, Clerk
                      Jon Bouker, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2000...............................     1
Statement of:
    Graham, Carolyln, Deputy Mayor for Children, Youth and 
      Families, District of Columbia; Grace Lopes, special 
      counsel, receivership and institutional litigation; Linda 
      Mouzon, executive director, Social Services Administration, 
      Maryland Department of Human Resources; and Ernestine F. 
      Jones, general receiver, District of Columbia Child and 
      Family Services............................................    20
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................     5
    DeLay, Hon. Tom, a Representative in Congress from the State 
      of Texas, prepared statement of............................    16
    Graham, Carolyln, Deputy Mayor for Children, Youth and 
      Families, District of Columbia, prepared statement of......    23
    Jones, Ernestine F., general receiver, District of Columbia 
      Child and Family Services, prepared statement of...........    56
    Lopes, Grace, special counsel, receivership and institutional 
      litigation, prepared statement of..........................    36
    Mouzon, Linda, executive director, Social Services 
      Administration, Maryland Department of Human Resources, 
      prepared statement of......................................    41
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................    12

 
    BEST INTERESTS OF THE CHILD? A REEXAMINATION OF THE DISTRICT OF 
           COLUMBIA'S CHILD AND FAMILY SERVICES RELATIONSHIP

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2000

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Thomas M. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis, Morella, Horn, Burton [ex 
officio], and Norton.
    Also present: Representative DeLay.
    Staff present: Howie Denis, Victoria Proctor, and Hana 
Brilliant, professional staff members; David Marin, 
communications director/counsel; Melissa Wojciak, staff 
director; Jenny Mayer, clerk; Jon Bouker, minority counsel; and 
Jean Gosa, minority assistant clerk.
    Mr. Davis. Good morning. Today we will once again examine 
the receivership of the District of Columbia's Child and Family 
Service Agency [CFSA]. I wanted to begin this hearing today 
with the same question I asked at the conclusion of our last 
hearing: Can Brianna Blackmond's death happen again?
    Unfortunately, recent events at CFSA reveal their continued 
operational breakdowns and have convinced this subcommittee 
that such a tragedy could happen tomorrow or even today. 
Instead of standing by and waiting for the next innocent child 
to be harmed by abuse or negligence, we are demanding that the 
courts and the parties to the LaShawn case put an emergency 
plan in place that will immediately unite CFSA with the 
District Court Social Services Agency and other parties 
involved in child welfare cases in the District of Columbia, 
including the Metropolitan Police Department, the D.C. Superior 
Court, and the D.C. Corporation Counsel. This emergency plan 
also must return CFSA to the District of Columbia. This plan of 
action must be presented to Congress within 10 days of this 
hearing. On May 5, this subcommittee heard too many promises of 
cooperation and has seen very little action to correct the 
situation. Working with my good friend, Tom DeLay, my 
colleague, Ms. Norton, my colleague, Mrs. Morella, and the 
Mayor, Tony Williams, we intend to end the period of slow and 
incremental reform. The children can't wait any longer. Our 
Nation's Capital needs a fully functioning child welfare agency 
to serve its neediest, most vulnerable citizens.
    The Child Family Services Agency has languished in 
receivership for 5 years. There has never been a government 
agency in the entire Nation that has floundered under the 
supervision of a court-appointed monitor for this long a period 
of time that I'm aware of. There have been five public agencies 
in other localities in the United States that have been placed 
in receivership, yet each of these receiverships were short-
lived and quickly reformed and returned as a functioning agency 
to the government.
    CFSA under the direction of its second court-appointed 
receiver, Mrs. Ernestine Jones, has continued to demonstrate 
extreme deficiencies in the delivery of expected services. At 
our last hearing, we heard from Mrs. Jones about CFSA's reform 
efforts in such areas as identifying at-risk children and 
families; ensuring appropriate support services are available 
to children in need; developing out-of-home care; meeting the 
Adoption and Safe Families requirements; meeting the needs of 
children with special physical and emotional needs; improving 
the quality of social work practices; supporting a stable and 
qualified work force; and proper compliance with and 
utilization of the interstate compact with Virginia and 
Maryland for child welfare services. Each of these areas of 
reform are required by the receivership court order in order 
for the agency to function efficiently and to return to the 
District of Columbia.
    This subcommittee commissioned the GAO investigative report 
on the current state of these reforms instituted by Mrs. Jones. 
The initial report that we have received from GAO regarding 
CFSA's operation is quite simply appalling. The GAO briefed me 
on what they found, and I believe it is a miracle every time 
this city makes it 24 hours without the death of another child. 
For example, the report revealed that CFSA is not governed by 
any form of formal operational procedures to guide their 28 
child welfare programs. Written procedures on how to handle 
casework or how CFSA should work in collaboration with other 
district agencies simply doesn't exist. The last time CFSA had 
any form of written directions was in 1994, before it was 
placed in receivership. This is not in compliance with the 
modified final order. Mrs. Jones has taken this lack of 
compliance so seriously that only 1 of over 210 receivership 
employees is tasked to develop this procedural manual.
    Additionally, the agency is plagued by poor recordkeeping, 
with only 52 percent of their child welfare cases inputted into 
their computer system. GAO found many of these records are 
inaccurate or incomplete. I am convinced that the agency does 
not know where children it placed are now, and if they are 
better off or worse off than when they entered. Furthermore 
CFSA continues to operate at below acceptable staffing levels 
with staff members overwhelmed by their enormous caseloads. The 
agency is at 80 percent staffing and is consistently losing a 
third of its employees. That is despite assurances this 
subcommittee heard from witnesses that the situation would be 
corrected by the end of the summer. The staffing shortages have 
led to children not receiving the special services they need 
and social workers not able to monitor children at the court-
ordered time intervals. For instance, social workers must visit 
a new foster care placement every 2 weeks for the first 2 
months. GAO found social workers are able to visit a child 
every 3 months to 2 years after the original placement. If 
little Brianna had been properly monitored and looked after by 
CFSA, she would be with us here today.
    This mishandling of children's cases was again brought to 
the public's attention when D.C. Superior Court Judge Kaye 
Christian demanded that CFSA be held accountable for their 
services in the case of a 20-month-old neglected boy. The 
social worker assigned to the case had failed to visit the boy 
or his family for 3 months and did not appear for two scheduled 
court hearings, and neglected to file a required court report 
updating the child's situation. His supervisor also did not 
appear in court for two hearings, and court-appointed Receiver 
Ernestine Jones, who was subpoenaed to appear on July 26, also 
failed to appear. The court had to go so far as to arrest Mrs. 
Jones when she refused to recognize the authority of the 
District of Columbia court system. After this disgraceful 
series of events, the receiver sued D.C. Superior Court to make 
it clear that she is accountable to no one. With an agency that 
has lost the confidence of the public and the children at risk, 
the receiver determined it was more important to sue D.C. 
Superior Court than to bring this agency into compliance with 
any single piece of the MFO. When it was clear that the public 
could take no more of this nonsense, the lawsuit was eventually 
withdrawn. It is clear to this subcommittee that we all must be 
accountable for CFSA and their inability to help and protect 
children.
    It is this committee's opinion that CFSA is functioning no 
better than when it was removed from the District's authority 
in 1995. Five years ago, the District government was under a 
different administration, riddled by corrupt inefficiencies, 
and the government of this city was deeply broken. Today, the 
District is under the steady and capable leadership of Mayor 
Anthony Williams and making a turnaround. Returning CFSA as a 
reunified agency to the District, in my judgment, is the most 
effective means of immediately reforming CFSA.
    The purpose of this hearing today is to call on all parties 
involved in this situation, CFSA, the plaintiffs, the court 
system, and the District government to come together and create 
and implement an emergency plan to reform CFSA and end the 
receivership. With our Nation's Capital's most vulnerable and 
underrepresented voices in dire need of our assistance, this 
reunification needs to occur as soon as possible. We owe it to 
Brianna Blackmond's memory to take every step possible to 
improve outcomes for children potentially placed in similar 
predicaments. We must let them know that help is on the way by 
working together to institute the best course of action needed 
to correct CFSA's systemic inadequacies.
    We are joined today by the District's Deputy Mayor, Carolyn 
Graham, and special counsel, Grace Lopes, to learn about the 
District's efforts to negotiate the return of CFSA and to 
support them in their reform efforts. We are also joined by 
Linda Mouzon of the Maryland Child Welfare Service Agency to 
discuss Maryland's difficulties in aiding the District with 
their out-of-State foster home placements, and by Mrs. 
Ernestine Jones, CFSA's receiver, to learn why this agency is 
still performing so poorly. I expect to hear from our witnesses 
today what will be done to reform CFSA and comply with the 
receivership court order.
    We are also fortunate to be joined by concerned Members of 
Congress. We are honored by the presence of Congressman Tom 
DeLay whose personal interest and experience with child welfare 
systems will be extremely beneficial to this hearing. Thank you 
very much for joining us today. I will now yield to Delegate 
Norton for her opening statement.
    [The prepared statement of Hon. Thomas M. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T4760.001
    
    [GRAPHIC] [TIFF OMITTED] T4760.002
    
    [GRAPHIC] [TIFF OMITTED] T4760.003
    
    [GRAPHIC] [TIFF OMITTED] T4760.004
    
    [GRAPHIC] [TIFF OMITTED] T4760.005
    
    Ms. Norton. Thank you, Mr. Chairman, and I thank you for 
convening this oversight hearing and for the way you have 
handled this very urgent problem.
    This subcommittee, of course, held a hearing on the 
District of Columbia Child and Family Services Receivership as 
part of a series of hearings on what were then three 
outstanding receiverships. All were troubled. The subcommittee 
intervened to look at all the receiverships after the death of 
baby Brianna Blackmond when no specific vehicle for assessing 
responsibility or plan for bringing changes emerged, and in the 
absence of jurisdiction by the District, which lost control of 
the agency to a Federal court receiver in 1995. My bill, the 
District of Columbia Receivership Accountability Act, co-
sponsored by Chairman Davis, speedily passed the House in June, 
and I am pleased to report that the bill will be marked up in 
the Senate Governmental Affairs Committee and may go to the 
floor of the Senate as early as this week and that passage is 
virtually assured.
    The last thing Chairman Davis and I thought would be 
necessary after a tough hearing and GAO investigation, promises 
made, and a receivership bill passed, is that we would be 
calling back any of the receiverships for further hearings.
    In calling this hearing today, we emphasize what we have 
thought was clear before: that foster and abused children may 
have lost a normal family life, but we do not intend to allow 
them to be lost in government bureaucracies; that this 
subcommittee will maintain its oversight until we are satisfied 
that improvements that ensure the safety of these children have 
been made; and, above all, that these children matter as much 
as any others to the District and to the Congress.
    We have not forgotten baby Brianna Blackmond, found dead 
after being returned to a mother who had been adjudged 
neglectful of all eight of her children by the courts. Today, 
we are unaware of any policy or operational changes that would 
prevent a similar loss of life or injuries to children. The 
indications point in the opposite direction--very critical 
findings by the GAO, the arrest of the receiver for failing to 
appear before a city judge, and the reported refusal of the 
State of Maryland to receive foster care children because of 
the indications that the receivership has no reliable way to 
track children placed in Maryland. We will be particularly 
interested to learn how today's witnesses view the actual state 
of the agency.
    The receivership may be outside of the jurisdiction of the 
District of Columbia, but it is not beyond the jurisdiction of 
this subcommittee. Our receivership accountability bill, which 
we expect the President to sign soon, will require that 
receiverships must use best practices, engage in an annual 
management and fiscal audit by an independent auditor, ensure 
cost controls consistent with regional and national standards, 
use procurement practices that foster full and open 
competition, and meet a number of other standards that should 
be routine for any entity charged with public responsibility 
using public funds.
    H.R. 3995, of course, will not be applicable until passed 
by the Senate and signed by the President. However, recent 
developments in the agency leave us unconvinced that even the 
new legislation will be sufficient to help turn around this 
deeply troubled agency quickly enough. After Baby Brianna's 
death, the city, to its credit, did its own investigation and 
its D.C. Child Fatality Review Committee issued an objective 
and highly critical report of the role of city agencies in the 
child's death. I am convinced that if the Child and Family 
Services Agency were under the direct jurisdiction of Mayor 
Williams, by now we would have in place for this agency an 
interagency task force, management plans with goals, and risk 
assessment plans of the kind that are now operational in all 
city agencies. By now I believe we would be seeing at least the 
beginning of changes as are apparent in the agencies under the 
Mayor's direct control.
    Representative Tom DeLay--himself a foster parent and 
nationally known advocate for children, who will testify before 
this subcommittee once again today--Chairman Davis, and I held 
a productive meeting with Mayor Williams last week. We agreed 
that the most direct way to bring immediate and measurable 
results would be to directly involve the Mayor and the city 
with the receiver in the presentation of an emergency plan to 
be submitted to this subcommittee, to other parties, and to the 
Federal court. Such a plan is consistent with the existing 
mandates of the court and should assist the receiver to meet 
court deadlines. The additional participation of the city will 
assure the integration of sister agencies necessarily involved 
but not now under the jurisdiction of the receiver. An 
emergency plan developed with the oversight of the Mayor will 
also assist in the transition of the Child and Family Services 
Agency back to the city.
    As unacceptable as we find the state of the agency, we are 
well beyond mere criticism today. I hope all will regard this 
hearing as we do--as a way to help solve a problem of great 
urgency, immediacy, and priority.
    I welcome Representative DeLay and today's other witnesses 
and look forward to an exchange that will begin the process of 
visible and satisfactory change.
    Mr. Davis. Thank you, Ms. Norton.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] T4760.006

[GRAPHIC] [TIFF OMITTED] T4760.007

    Mr. Davis. I would now recognize our whip, Mr. DeLay. Tom, 
thank you for being here today.
    Mr. DeLay. Thank you, Mr. Chairman. Thank you for all your 
courtesies, for allowing me to be here today. I particularly 
thank Ms. Norton and Mrs. Morella for their interest and 
leadership in this, and I thank the witnesses for being here 
today.
    Let me say a few things if I may Mr. Chairman. We are in 
the middle of the last few weeks of our legislative session, 
and my responsibilities are many and my schedule is full right 
now as we try to get our work done and adjourn sine die. But 
let me tell you unequivocally, that the remaining conference 
reports, whipping votes, and meetings with the Senate 
leadership are a last priority for me today. There is nothing 
more important, nothing, than the well-being of kids right here 
in our own backyard.
    Right now and right here in the shadow of this Capitol, in 
the shadow of the Capitol of the greatest country on Earth, we 
are failing to effectively intervene on behalf of suffering 
children. Shame on us. Shame on us.
    I am not here to assign blame but to call for 
accountability and action. Miss Jones, I know there are 
problems left over from the corrupt administrations, and I know 
that change takes time. But I am just incredibly frustrated 
with excuses and the lack of sense of urgency that I have 
witnessed in the last 10 months that I've been involved in this 
situation. It has got to stop and it has got to stop right now.
    This is so much more than each of us here in this room. No 
one wants to admit it, but under current circumstances, the 
best interests of the District's children are not being served. 
Certainly no one wants this to be the case, but it is time to 
face facts, face reality, and make some changes.
    This isn't about permits and jurisdictions and 
bureaucracies and offices and jealousies and those kinds of 
things. This is about comprehending the gravity of a situation 
and doing whatever is necessary to address it. This is about 
children.
    What I have found in my work with abused children is that 
people do not want to face the reality of what adults are doing 
to their children. These are children that, upon birth, within 
the first 18 months, their arms are broken, their legs are 
broken, their heads are bashed in, they are put in scalding 
water, they are burned with cigarettes and cigars. Children 
that are at the age of 6 are being sexually raped by their 
family members. Girls that are being sold into prostitution at 
the age of 6, 7, 8 years old, by their drug-addicted mothers. 
That is what we are talking about here. Those kind of children.
    And the worst part about it is this system is abusing them 
even worse. That is in your Nation's Capital. We have seen 
little or no evidence of change since the May hearing. The GAO 
report reveals that over 1,200 cases, that is 1,200 abused or 
neglected, children weren't even investigated. Those cases 
weren't even investigated in the mandatory 48-hour period, 
between the months of June and July. These are children that 
either someone noticed were beaten and abused or made an outcry 
of their own. And the system wouldn't even investigate it. And 
worse than that, 150 children had no investigation within 30 
days; 30 days.
    Now, you put yourself in the position of that child who 
finally has had enough of what the adult is doing to them and 
makes an outcry, and the system won't even investigate it for 
30 days. Maybe we ought to take some of you and put you in that 
situation and see how helpless you are or how you would feel if 
no one cared and you're trying to get some help.
    I am convinced that the drastic changes and emphasis on 
accountability that this agency must adopt to begin functioning 
at a minimum level of competence requires the full attention of 
Mayor Williams and his administration. Let's give him the 
opportunity to take back this agency and address the systemic 
function within it. The agency should be removed from 
receivership and placed under the control of the city at the 
earliest possible date. Under these atrocious circumstances, we 
not only have the duty to act, we have a moral imperative to do 
so.
    Let's end this silly bifurcation that has led us to chaos 
and confusion. Let's create a cohesive investigative team that 
includes police and social workers. Let's create a family court 
that focuses on the needs of children. Let's support and enable 
volunteer organizations such as CASA, or court advocates here 
in Washington, DC, to help overworked social workers put 
children first by giving judges the most accurate and detailed 
reports possible.
    I'll do whatever it takes to bring accountability to this 
agency. I am committed to seeing this process through. And, Mr. 
Chairman, I hope to see a joint emergency action plan from the 
city and the receiver within 10 days. Because please note, I am 
prepared to take legislative action if I am not convinced that 
the necessary steps have been taken. I am going to do it on 
behalf of the children.
    Let's commit here today to stop talking and meeting and 
start doing something. I've told the Mayor that I will help him 
bring together a task force of the most qualified people in the 
country to help the city restructure the agency. There are 
models all over this country of success stories that we can 
draw from. My staff is at his disposal and my door is open to 
him at any time, and I welcome the interest of the Mayor. The 
Mayor is very interested in doing something if he'd ever be 
given the chance to do it.
    Finally, let's just remember the point of this whole thing. 
It is not us and how well we are or aren't doing our jobs; the 
point is that we see the lives of our most vulnerable children 
in jeopardy. What are we going to do about it?
    Thank you Mr. Chairman.
    Mr. Davis. Thank you very much Mr. DeLay.
    [The prepared statement of Hon. Tom DeLay follows:]
    [GRAPHIC] [TIFF OMITTED] T4760.008
    
    [GRAPHIC] [TIFF OMITTED] T4760.009
    
    Mr. Davis. Mrs. Morella, our vice chairman of the 
committee.
    Mrs. Morella. Thank you Mr. Chairman. I appreciate your 
calling this very important hearing today, and I wanted to 
extend my thanks to you and I certainly want to thank Mr. DeLay 
because he demonstrates the leadership's focus on this issue, 
and I applaud that because it is for our children. I certainly 
thank Ms. Norton for her work in this, too.
    The outcome of today's oversight hearing concerning the 
District of Columbia's Child and Family Services Receivership I 
think is very critical to determine the independence of the 
District of Columbia in controlling its own agencies and the 
proper functioning of interstate child services in the region. 
However, I want to also underline the fact that really what we 
are talking about is the safety and welfare of the foster 
children of the District of Columbia.
    I like the adage that when you touch a rock you touch the 
past, and when you touch a flower you touch the present, but 
when you touch a child you touch the future. That is what we 
have heard over and over again, and that's our deep belief. It 
is their fate that hangs in the balance as we develop an 
emergency plan detailing the reforms that will be enacted to 
conform to the court order in an effort to return the Child and 
Family Services Receivership to the District of Columbia's 
jurisdiction.
    As we are all well aware, the District's Child and Family 
Services Agency has been under a Federal court order since 1991 
and has been under receivership since 1995. The District of 
Columbia has the dubious distinction of being the only 
jurisdiction in the history of the United States with more than 
one agency in receivership at the same time. As was pointed out 
in the May hearing, the District of Columbia's three 
receiverships combined will cost the District taxpayer $352 
million this year in court-controlled spending with the 
government of the District of Columbia unable to control the 
operations of these vital agencies.
    In the wake of the shocking death of the 23-month-old 
Brianna Blackmond, the D.C. Subcommittee held a hearing to 
discuss what actions the Child and Family Services Receivership 
must take in order to prevent such a terrible tragedy from ever 
happening again. Some of those recommendations included 
additional training for social workers and requiring social 
workers to provide field reports to judges 10 days before 
hearings on a child's status.
    Unfortunately, since the May hearing, the receivership has 
not shown the necessary and sufficient improvements in its 
management and operations. We will hear from Miss Jones, but 
recently she herself was arrested for failure to respond to a 
subpoena issued by the D.C. Superior Court in the neglect case 
of a 20-month-old boy. Miss Jones was only issued a subpoena 
after the child's social worker did not visit the child for 3 
months, failed to appear in court twice, and failed to file a 
required court report about the child's condition.
    Most recently, Maryland's Social Services Administration 
has prevented any new D.C. foster children from being placed in 
the State, a critical decision for the District of Columbia 
since nearly half of the District's 3,100 foster children live 
in Maryland. The State of Maryland was unfortunately forced to 
make this decision as they discovered that the Child and Family 
Services Receivership was not notifying the State before the 
foster children were placed with Maryland families. 
Consequently, without the proper paperwork, criminal background 
checks and home inspections were not being performed before a 
child's placement, a fact that is simply abhorrent.
    So while I support the initial decision of the Maryland 
Social Services Administration, this certainly says we have to 
work together to help to devise a plan to revitalize this 
failed agency and return it to the jurisdiction of the District 
of Columbia where it belongs.
    My hope is that the recommendations that we make will 
forever prevent another Brianna from being hurt by the 
inadequacies of a mismanaged government service. A foster child 
should feel the same warmth and love as any other child, 
perhaps more. A foster child should never feel that he or she 
is the burden of the government.
    I thank you, Mr. Chairman.
    Mr. Davis. Thank you, Mrs. Morella.
    I now call our panel witnesses to testify. I think we are 
all here now.
    Carolyn Graham, the deputy director for Children, Youth and 
Families; Miss Grace Lopes, who is the special counsel for 
receivership and institutional litigation. They will address 
areas of reform that need to be enacted by the Child and Family 
Services Agency in the efforts to return the agency to the 
District government. Miss Linda Mouzon, who will address 
Maryland's difficulties in working with the District of 
Columbia on interstate compact issues; and Mrs. Ernestine 
Jones, the general receiver of the District of Columbia Child 
and Family Services, who will address the current state of 
affairs of the Child and Family Services Agency and the lack of 
any substantial reforms in this agency over the course of the 
receivership.
    As you know, it is the policy of this committee that all 
witnesses be sworn before you testify. Would you please rise 
with me and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis. Be seated. Thank you.
    To afford sufficient time for questions I would ask each of 
you to keep your oral testimony to 5 minutes, and that will 
give us time for questions. We have read the prepared 
statements, so if you highlight what you want to and if you 
want to add something to it you can do that.
    Let me start with Miss Graham, and then we will go to Grace 
Lopes and then Ms. Mouzon, and you will be our cleanup hitter, 
Ms. Jones.

STATEMENTS OF CAROLYLN GRAHAM, DEPUTY MAYOR FOR CHILDREN, YOUTH 
   AND FAMILIES, DISTRICT OF COLUMBIA; GRACE LOPES, SPECIAL 
   COUNSEL, RECEIVERSHIP AND INSTITUTIONAL LITIGATION; LINDA 
  MOUZON, EXECUTIVE DIRECTOR, SOCIAL SERVICES ADMINISTRATION, 
MARYLAND DEPARTMENT OF HUMAN RESOURCES; AND ERNESTINE F. JONES, 
    GENERAL RECEIVER, DISTRICT OF COLUMBIA CHILD AND FAMILY 
                            SERVICES

    Ms. Graham. Good morning, Congressman Davis, Congresswoman 
Norton and members of the congressional Subcommittee on the 
District of Columbia, and you as well, Mr. DeLay. I am Carolyn 
N. Graham, Deputy Mayor for Children, Youth and Families in the 
District of Columbia; and on behalf of Mayor Anthony A. 
Williams I welcome the opportunity to testify at this oversight 
hearing today.
    As we discussed at the May hearing, the quality of our 
child welfare system has been a longstanding concern for the 
city. As you know, the city has been under a Federal court 
order since 1991; and the Child and Family Services Agency has 
been in some form of receivership since 1993.
    Overall, our assessment is that, despite improvements in 
the infrastructure within CFSA, substantial improvements have 
not yet been seen in terms of case practice and better 
permanency outcomes for children. Children in this city stay in 
foster care far too long without either being returned home or 
adopted. Although some progress has been made, where we are now 
remains untenable.
    We believe that it is time to transition the agency back to 
the Mayor's control. Receiverships are not intended as 
permanent solutions, and this administration has clearly 
demonstrated a commitment to improving the child welfare system 
in the city.
    Turning the corner on this will require this 
administration's leadership not only to improve CFSA but also 
to improve the communication among all stakeholder agencies, 
end the so-called bifurcated system, improve the operations of 
the Superior Court and expand creative strategies to engage the 
community in supporting birth, foster and adoptive families.
    Before I describe the initiatives we have taken to prepare 
for the transition, I want to address the issue of children 
placed in Maryland because I know this is a concern for all of 
us.
    The interstate compact on the placement of children, or the 
ICPC, governs such placement in out-of-State situations. I want 
to first clarify for you that many of the cases that lack the 
ICPC agreement are situations in which CFSA was ordered by the 
Superior Court to place a child with relatives prior to the 
child's official entry into foster care and, thus, prior to the 
initiation or completion of the ICPC.
    Regardless, the cumbersome and frequently delayed process 
for establishing ICPC agreements has been untenable, and the 
responsibilities for resolving this rests squarely with both 
our Department of Human Services and CFSA. I am thus very 
pleased to report today that a memorandum of understanding 
establishing clear processes to expedite the execution of ICPC 
agreements was signed yesterday, September 19, by the State of 
Maryland, the receiver and myself as the interim director of 
the District of Columbia's Department of Human Services. The 
MOU establishes a corrective action plan to address the backlog 
of current cases that lack ICPCs and establishes protocols to 
establish new ICPC agreements more quickly.
    Admittedly, it took too long to get this done. However, I 
am confident that we now have in place the basis for 
establishing a more efficient system for processing ICPCs. This 
will help us to increase the number of children who are adopted 
in a timely fashion and improve compliance with the Federal 
Adoption and Safe Families Act.
    At this point, I would like to describe several of the 
actions and initiatives that this administration has taken to 
improve the child welfare system and to lay the groundwork for 
its return to the control of the Mayor.
    We have established working processes for completing foster 
home inspections and approval by the Fire Department and the 
Department of Health. As a result, there are no longer backlogs 
of foster care homes needing health department and fire 
inspections.
    When the Williams administration assumed responsibility for 
this government, we found in excess of 100 applications in both 
the Department of Health and the Department of Fire where 
inspections were needed. We have eliminated all these backlogs.
    To further help, we have also assisted social worker 
recruitment and retention by issuing an order signed by this 
administration allowing temporary reciprocity for social 
workers licensed in other jurisdictions.
    I recently instructed the director of the Department of 
Health to go farther and issue an order allowing permanent 
reciprocity. The current order allows social workers to be 
issued a temporary license for 1 year, during which time they 
have to pass the social worker examination. The new order will 
allow social workers licensed in other jurisdictions to be 
licensed here without having to take another test.
    This administration is now developing group home 
regulations for the city.
    We are also working with SOS Children's Villages and Boys 
Town to develop other permanent placement options here in the 
District of Columbia for children in foster care.
    We are continuing to work with the CFSA on the Bring Our 
Children Home public outreach campaign to recruit foster and 
adoptive parents. Since January 2000, CFSA has approved 94 new 
foster homes--55 in the District, 38 in Maryland and 1 in 
Virginia.
    We have developed and are awaiting congressional approval 
of a plan to utilize $5 million for adoption support services 
and incentives.
    This administration is now developing a Children's 
Assessment Center that will significantly improve the 
investigation and prosecution of child abuse and neglect cases. 
The CAC will locate and integrate the work of all agencies 
involved in these cases. This model has been successfully 
implemented in several other jurisdictions, including Texas, 
Alabama, New York and California. This strategy was highlighted 
in a followup white paper issued by the Mayor last month that 
describes the current fragmented system of investigation and 
prosecution of child abuse and neglect. The CAC is scheduled to 
come on line in the District by the end of 2001.
    In addition to initiatives directly related to the child 
welfare system, this administration is also taking a more 
proactive and preventive approach to improving outcomes for 
children as evidenced by the following: The establishment of 
neighborhood-based parent development centers. We have 
established six in this city over the course of the summer. 
Implementation of nurse home visits for all newborn children. 
This initiative goes on line in October. Significant expansion 
of after-school programs for children and youth in the city. By 
the end of September we will have added 30 new out-of-school-
time programs. We have increased the affordability of child 
care slots in the District of Columbia. We are also taking 
every opportunity to ensure there is a seamless transition of 
CFSA back to the Mayor's control through the development of 
linkages between the child welfare system and our health and 
human service agencies.
    The receiver participates in twice-monthly meetings of the 
directors of all of our human service agencies. This provides 
an opportunity to identify and resolve cross-agency issues. 
CFSA actively participates in a stakeholders group focusing on 
reform of the Superior Court related to the processing of child 
welfare cases.
    CFSA serves as a resource for the Mayor's Blue Ribbon 
Commission on Youth Safety and Juvenile Justice Reform.
    CFSA's director of policy and planning is a member of a 10-
person interagency planning group that is developing wraparound 
services in the District for children with mental health needs 
and their families.
    CFSA is also participating in the development of an 
interagency children's tracking system, a city-wide data system 
that will track children receiving services from any city 
agency such as CFSA, Juvenile Justice, TANF, Food Stamps and 
Special Education.
    In closing, let me say this administration looks forward to 
taking responsibility for the full functions and day-to-day 
operations of the child welfare system. We are committed to 
working with all stakeholders to improve outcomes for all 
children in the system. I thank you very much for this 
opportunity to testify before the distinguished members of this 
committee and am happy to answer any questions that you might 
have.
    Mr. Davis. Thank you very much.
    [The prepared statement of Ms. Graham follows:]
    [GRAPHIC] [TIFF OMITTED] T4760.010
    
    [GRAPHIC] [TIFF OMITTED] T4760.011
    
    [GRAPHIC] [TIFF OMITTED] T4760.012
    
    [GRAPHIC] [TIFF OMITTED] T4760.013
    
    [GRAPHIC] [TIFF OMITTED] T4760.014
    
    [GRAPHIC] [TIFF OMITTED] T4760.015
    
    [GRAPHIC] [TIFF OMITTED] T4760.016
    
    [GRAPHIC] [TIFF OMITTED] T4760.017
    
    [GRAPHIC] [TIFF OMITTED] T4760.018
    
    [GRAPHIC] [TIFF OMITTED] T4760.019
    
    [GRAPHIC] [TIFF OMITTED] T4760.020
    
    Mr. Davis. Miss Lopes.
    Ms. Lopes. Thank you very much.
    Good morning, Chairman Davis, Ms. Norton, Mr. DeLay, Mr. 
Horn, members of the committee. I am Grace Lopes. I am the 
Mayor's special counsel for receivership and institutional 
litigation.
    My testimony will address three matters.
    First, I will explain my role in the LaShawn case, which is 
the class action that governs the child welfare system. I will 
describe the current posture of the case, the legal posture, as 
it is now, and I will clarify our position in the litigation 
with respect to termination of the receivership.
    With respect to my role as special counsel, this role was 
created as part of Mayor Williams' administration's initiative 
to address the proliferation of litigation against the District 
and the intervention of the courts in the operation of District 
agencies.
    I began this role in February of this year, and my 
responsibilities generally are two-fold. One, they extend to 
all litigation that implicates receiverships of government 
functions or public functions and, second, all litigation where 
there is a potential for increased intervention in the 
operation of our agencies.
    My responsibilities in LaShawn are multifaceted: First, I 
am responsible for developing the litigation strategies for 
terminating the receivership and transitioning back to the 
District.
    Second, I am responsible for developing and implementing 
the strategies to resolve the underlying court orders. Because, 
in fact, once the receivership is vacated, those orders remain 
unless and until the District comes into compliance with those 
orders. So vacating the receivership is a predicate to vacating 
the courts, but compliance with those underlying orders unless 
they are modified is a predicate to eliminating the court's 
involvement in the operation of the agency.
    Third, I am responsible for facilitating compliance with 
the court's orders and supporting the receiver as appropriate 
with respect to accelerating her compliance and accelerating 
ultimately the termination of the orders in the case.
    I am also responsible for intervening as necessary in 
cross-agency issues in order to support compliance with the 
court's orders, and I do that typically in coordination with 
Deputy Mayor Graham.
    And, finally, I act as the Mayor's liaison with all the 
stakeholders--the Federal court, the Court Monitor, plaintiffs' 
counsel, etc., in this case.
    When I came into this case or shortly thereafter, in 
February, I initiated an assessment, my own assessment, of the 
receivership and the receivership's compliance with the orders. 
I used typical audit methodology for a lawyer in this kind of 
situation--conducted my own investigation, extensive interviews 
with all the stakeholders, review of the court record, review 
of the monitor's reports, etc. I found and I think the evidence 
is pretty clear that, in fact, if we look at all of the 
traditional performance indicators, in most instances there has 
not been significant improvements under receivership.
    I also want to clarify that this case has been or this 
agency has been in receivership since 1994, initially with 
three limited receivers who came in, followed by two general 
receivers, one appointed in 1995 and the latter in 1997. But 
despite the succession of receiverships there has not been 
demonstrable and significant improvement with respect to those 
performance indicators, and that is what my assessments show. 
On the basis of that, I concluded that it would be prudent and 
very important for us to move forward as expeditiously as 
possible to terminate the receivership; and the strategy that I 
embarked upon was a negotiation strategy where we could work 
with all of the stakeholders collaboratively to resolve it as 
expeditiously as possible.
    I initiated discussions over the summer with all of the 
stakeholders and, in an effort to accelerate the negotiation 
process, requested the court's intervention. I am happy to 
report that the court instructed the Court Monitor to convene 
the parties and to convene them for the purpose of attempting 
to work together to resolve a transition plan to be presented 
to the court. We have had one very substantial and recent 
negotiation session with respect to that plan. There are 
several more scheduled within the next month, and we are--all 
parties--scheduled to meet with the court on October 18.
    My plan, if we are unable to reach agreement on October 18 
and present the court with an agreement to transition out, is 
to request that the court set a briefing schedule so that we 
can move forward to litigate and move to vacate this 
receivership. I cannot predict what the course of the 
negotiations will be. I can say that there are many areas where 
there is significant agreement but many more areas to address 
and resolve. These are complex negotiations, as I am sure you 
can appreciate.
    In conclusion, let me just say that the District is 
determined to transition out of this receivership as 
expeditiously and responsibly as possible. We want to lead this 
transition effort, and we want it to be marked by creative 
thinking, careful planning and an expedited frame work. I thank 
you and look forward to responding to any questions you may 
have.
    Mr. Davis. Thank you very much.
    [The prepared statement of Ms. Lopes follows:]
    [GRAPHIC] [TIFF OMITTED] T4760.021
    
    [GRAPHIC] [TIFF OMITTED] T4760.022
    
    [GRAPHIC] [TIFF OMITTED] T4760.023
    
    Mr. Davis. Miss Mouzon, I am glad you got here through the 
traffic. It was Maryland traffic, wasn't it?
    Ms. Mouzon. No. Believe it or not, I am from Washingotn, 
DC. I thought I knew where I was going, went over to the Senate 
building where I did not belong, had to be redirected, thought 
I knew the Green Line from the Red Line and took a wrong turn 
on the Green Line. So I do apologize to the committee.
    Mr. Davis. That is fine. I'm glad you're here.
    Ms. Mouzon. Good morning, Chairman Davis, members of the 
committee.
    My name is Linda Mouzon. I am the executive director of the 
Social Services Administration and the Department of Human 
Resources for the State of Maryland. I do thank you for this 
opportunity to allow me to speak to this committee today to 
talk about the common interest that Maryland has with the 
District of Columbia for the safe placement of children into 
the State of Maryland.
    Prior to 1989, Maryland and D.C.--I'm sorry, the District 
of Columbia shared reciprocity when it came to placement of 
children into--between the two. This allowed the District and 
Maryland to place children without having to go through the 
interstate compact process.
    As of 1989, the District of Columbia signed the interstate 
compact and, therefore, Maryland and the District were expected 
to conform to the requirements that were in the compact 
whenever a child had to be placed.
    Maryland is committed to the safety of all children that 
reside within our borders; and because we are a border State, 
sharing our border also with Virginia, West Virginia, 
Pennsylvania and Delaware, we do insist that children go 
through the interstate compact process so that we will know 
which children are in our State, where they are placed. That 
way we will have a mechanism in place in case we later receive 
a complaint from the community or from a resident indicating 
that there is further neglect or abuse, which Maryland would be 
charged to go out and investigate.
    As a result of our discussions with the District of 
Columbia, from 1989 until yesterday we did not have a formal 
agreement although we were all part of the interstate compact 
process whereby we could review the numbers of the vast volume 
of children who are now placed in Maryland.
    One of the issues for Maryland is we firmly believe that 
children should reside in their community. Therefore, we have 
instituted throughout our State the family to family process 
which allows us to maintain a child within their community with 
resource families as much as possible so that the mother or the 
father or the guardian who has come to our attention can work 
with the foster family as part of a team. It causes the least 
disruption to the child, allowing the child to maintain 
community supports as well as allowing the community to rally 
around the family and allow some continuity when it comes to 
the education of the child.
    I would also like to point out that Maryland did not ban 
the District of Columbia from placing children into Maryland. 
All we ask is that the District comply with the requirements of 
the compact whenever a child is placed. We do not have a 
mechanism in place that will Maryland allow the District to 
approve foster homes within Maryland, nor do we allow them to 
license group care placements within Maryland.
    However, Maryland does license facilities for the District 
to utilize.
    We also, through the agreement that we entered into 
yesterday, will have someone in place who will be able to 
provide us with the home studies required in Maryland, the 
criminal background checks, the health inspections, the fire 
inspections, as well as the medical inspections that we require 
of all of our families that we have as foster placements. This 
will also be done for relatives who come to the fore and are 
able to take care of relative children.
    I want to emphasize that Maryland is more than willing to 
work with the District to move children as quickly as possible 
into placement, and we do want to do that. We do realize there 
is some competition, particularly with Prince George's county 
when it comes to resource homes, because indeed we in Maryland 
are committed to keeping our children in our borders, and 
therefore, when we're entering into agreements, we have to be 
aware that we are competing for the same resource families. 
That is why I look forward to collaborating with the District 
of Columbia when it comes to the foster homes as well as 
adoptive homes.
    I would also like to say that Maryland has been very 
pleased with the process that we have engaged in as of late. We 
are very pleased to be a part of the agreement that we have 
now. We feel it addresses all the children who are already 
residing in Maryland that we did not know about, as well as 
children who will be placed in Maryland in the future. It is 
our hope and our expectation that we will continue to follow 
the agreement as it was drawn up yesterday, and we look forward 
to working with the District of Columbia in ensuring that all 
children placed within Maryland's borders are kept safe.
    I will be more than happy to answer any questions.
    Mr. Davis. Thank you very much.
    [The prepared statement of Ms. Mouzon follows:]
    [GRAPHIC] [TIFF OMITTED] T4760.024
    
    [GRAPHIC] [TIFF OMITTED] T4760.025
    
    [GRAPHIC] [TIFF OMITTED] T4760.026
    
    [GRAPHIC] [TIFF OMITTED] T4760.027
    
    [GRAPHIC] [TIFF OMITTED] T4760.028
    
    [GRAPHIC] [TIFF OMITTED] T4760.029
    
    [GRAPHIC] [TIFF OMITTED] T4760.030
    
    [GRAPHIC] [TIFF OMITTED] T4760.031
    
    [GRAPHIC] [TIFF OMITTED] T4760.032
    
    Mr. Davis. Ms. Jones.
    Ms. Jones. Good morning, Chairperson Tom Davis and members 
of the subcommittee of the District of Columbia. I would hope 
you would indulge me for a few minutes more than 5 minutes so 
that I might respond.
    OK. Thank you for the opportunity to again present 
information on the status of the reforms that are being made to 
bring the Child and Family Services Agency into compliance with 
the requirements of the Modified Final Order. My name is 
Ernestine F. Jones, and I am the court-appointed general 
receiver for the Child and Family Services Agency.
    I am pleased to take this opportunity to share with you 
information about the work that has continued since we came 
before this committee in May of this year. I will highlight for 
you information on the most critical areas.
    I've also attached to this presentation a copy of a recent 
release that outlines the major accomplishments of this 
administration. If there is interest in further detail, I will 
be glad to make additional information available to you.
    I do not want to mislead you and suggest that all of the 
problems that have plagued the child welfare system for the 
last 15 years are fixed. They are not. But we have made 
significant strides, and I hope that you and the general public 
will be able to put our accomplishments in perspective. I'm 
confident that we can achieve the goals that will permit us to 
bring this agency into compliance and assure the protection of 
children and the preservation of families.
    Once again, let me provide you with a brief profile of the 
clients that we serve in this agency. These statistics are for 
the period ending August 31st.
    The average number of neglect and abuse complaints called 
into the Hotline each month is 350. Of this number, 40 percent 
are reports of abuse, and 60 percent are reports of neglect. 
There are 2,500 calls per month for general information that 
are not related to child welfare. To make it easier for the 
public to report instances of suspected abuse and neglect and 
to provide accountability that all reports are recorded and 
properly investigated, we have put into place a single Hotline 
reporting number: 671-SAFE.
    Let me pause here to clarify that in addressing the 1,200 
children that was reported in the GAO report, while I can't 
give you all the specifics on it because I have not been privy 
to the report, I can assure you that the investigations have 
been initiated on those cases. When we report on the number of 
investigations completed, our definition of what a completed 
investigation is goes beyond the initial visit. So that in 
almost all instances our worker is out there within a 24-hour 
period. In some cases, if there is a large surge, it may take 
48 hours, but completing the investigation as reported in the 
system does not take place until you have done all of the 
ancillary work.
    The Hotline is the essential front door of any child 
protective service system, and I am pleased to report that we 
have shown major improvements in our intake division since May. 
We have a new administrator and are now fully staffed. As of 
the end of August we have been able to reduce the number of 
cases that failed to meet the 30-day deadline for completion--
and once again, I reiterate, completion means that we have done 
all ancillary work--of the investigations to 72 neglect and 74 
abuse, and that number is even lower in September.
    This is the first time that we have been able to accurately 
track what happens with abuse cases which are investigated and 
followed up on by the police, and it is the lowest number of 
overdue investigations we have had since the imposition of the 
LaShawn decree. That number has at times been in excess of 500. 
This has allowed us to be very close to compliance with the MFO 
in this area. It also will make it possible for us to increase 
the number of situations where our social workers can do joint 
visits with the police in abuse investigations in an effort to 
further reduce the number of instances in which children have 
to be removed from their own homes.
    There were 3,271 children in out-of-home care at the end of 
August. Of the children in out-of-home care, 484 children are 
in group care and 152 are in residential placements. Of the 
children in out-of-home care, 1,903 are placed with relatives.
    There are 427 children in the adoptions program; 250 were 
adopted in 1999, and 247 have been finalized through August 
2000. I might add, that number as of last week is 283.
    With the support and cooperation of the Superior Court, we 
expect to finalize over 300 adoptions this fiscal year, an all-
time record for this program. In this program, we are currently 
three staff short of the required number to come into 
compliance with the MFO, and I might add that we have 
identified those three replacement workers. We have implemented 
the Post Adoption Services Initiative that is intended to 
prevent adoption disruption. Through this service any adoptive 
parent may contact the agency to get additional help or 
services, if appropriate, whenever there is a need.
    There are 835 families with 2,014 children under agency 
supervision receiving services through our Kinship Care program 
and 530 families with 1,882 children receiving Family Services. 
In the Family Services Division, we are in compliance with the 
MFO for staffing. We have also served 102 families with 350 
children thus far this year in the Intensive Services program. 
Thirty-nine percent of these families have remained together as 
a family unit.
    Since May, we have expanded our Intensive Family Services 
program through two additional private agency contracts. Adding 
these two contracts brought this program into compliance with 
the MFO. There is a continuing need to expand this service 
further which we plan to do certainly, subject to available 
funding, in fiscal year 2001. This program allows us to work on 
an intensive basis with a family while allowing the children to 
remain safely in the home. This service is offered 24 hours per 
day, 7 days per week. Staff are sent into the home to work in a 
very concentrated way with families who have serious problems 
through intensive use of support services such as home 
management, prevental teaching, day care, close supervision 
with increased visitation, and counseling.
    Through the preventive services that we continue to make 
available to at-risk children and families through the Healthy 
Families/Thriving Communities Collaboratives we are continuing 
to make progress in keeping children in their own homes. The 
Collaboratives have provided services to 956 families and 2,912 
children thus far during this fiscal year, up from 1,800 served 
throughout the entire last year. This represents a 37 percent 
increase thus far over the past fiscal year.
    These services are also a requirement of the MFO and enable 
us to meet the Federal expectation to make reasonable efforts 
to prevent the placement of children and to support 
reunification when appropriate.
    The ASFA legislation has been implemented, and we're 
working with the members of the judiciary to meet the 
requirements as defined. The process that we are using has a 
three-track approach.
    The first is a process implemented to review all of the 
cases that were in the system prior to February 2000, when the 
law was enacted that needed to have the permanency plan 
established and approved.
    The second process is designed to ensure that all new cases 
coming into the system have a plan put into place in accordance 
with the requirements.
    The third process is designed to fast track the cases where 
adoption or relative care is the immediate or preferred plan 
for permanency for the child, such as with an abandoned child.
    Our struggle to come into compliance in this area and our 
recent difficulties in meeting the expectations of the Superior 
Court results primarily from the shortfall of social workers in 
the Foster Care and Kinship Care programs. Overall, we have 
increased the number of social workers on board in the last few 
months, but our turnover has continued to be high in these two 
programs. Our most recent job fair resulted in eight social 
workers that will be assigned to fill vacancies in these two 
programs.
    To address the continuing shortfall, we have hired four 
bachelor level social workers that have been assigned to the 
foster care unit to perform casework. A second group of 
bachelor level social workers will begin this month to perform 
similar work in the Kinship Care program. Finally, we have 
recently contracted with licensed social workers that only want 
to work on a temporary basis. This staff will be used to 
augment vacancies, especially where the new worker is still in 
training or to provide temporary coverage when a social worker 
leaves.
    We continue to experience problems in addressing the needs 
of this group of children, our special physical and emotionally 
handicapped children. The most difficult group is older 
adolescents who have special needs such as mental retardation 
and mental illness. These children are particularly difficult 
to place in foster home care. To address this problem, we have 
released a request for proposals for additional therapeutic 
foster homes with a special emphasis on children with dual 
diagnosis, and we are continuing our efforts to recruit proctor 
home parents. Proctor homes are specially recruited, two-parent 
homes to care for a particular child and the caretaker is paid 
a stipend so that one parent remains at home.
    With the assistance of a grant from the Annie E. Casey 
Foundation, a special review by the Chapin Hall Center out of 
Chicago has given us a clearer picture of the available 
resources in the Washington, DC, area to serve these children. 
While the raw capacity is there, their ability to meet the 
additional need will require this agency to expand their 
contracts to allow for increased support services for the most 
difficult to place children.
    We are currently working with the Mental Health receiver to 
develop more resources for mental health services for children. 
In general, this is a resource that is very limited in the 
District. We expect to release request for proposals for 
additional mental health services within the next 2 weeks. Our 
ability to develop these additional services is tied to 
additional funding that has been requested for fiscal year 2001 
and is included in the Mayor's fiscal year 2001 budget.
    We have developed a Memorandum of Understanding with the 
Addiction, Prevention and Recovery Administration to enable us 
to expand the available pool of resources to treat substance 
abuse among our young adults and for our own parents that want 
their children returned. At this time, there are virtually no 
treatment programs for adolescents beyond detoxification. We 
are working with APRA to simulate the effort of new services 
targeted to this population.
    You have heard a lot in the press recently about our 
problems with the interstate compact. There are minimal 
interstate compact issues with those children who are placed in 
programs located in the State of Virginia. Placement of 
District children in Virginia is handled through Lutheran 
Social Services which is licensed in Virginia to complete the 
compact process for us. There are now 96 children currently in 
placement in Virginia foster homes or group facilities.
    The interstate compact issue with the State of Maryland is 
more problematic because of the number of placements, 
especially placements with relatives, and implementing the 
changes in the requirements under the Adoption and Safe 
Families Act for the many foster homes that were already in 
use. The interstate compact agreement was not designed to 
reflect a situation where so many children are placed across 
State boundaries.
    For many years, the District has assumed all responsibility 
for the approval of the homes, monitoring of the homes and all 
payments for services required by the children placed in them. 
We have a total of 218 foster homes in Maryland; and, in 
addition, we contract with private agencies that have 536 
foster homes in Maryland. These homes represent about 60 
percent of our available homes that we have for placement of 
children and currently provide care for more than half of the 
children in out-of-home care.
    This issue is not that we do not know where these homes 
are--where these homes and children are, nor that we are not 
supervising these placements. And I might add, all of these 
homes have, indeed, met the approval process for the District, 
which has been even more stringent than the approval process 
that had previously been used in Maryland. We are now, however, 
all in sync with the same process because we all are required 
to meet the Adoption and Safe Families Act. So that I want to 
assure the committee that none of these homes lacked proper 
fire, police, or physical inspections, nor was there any lack 
of assessment of the homes. All clearances were done. The 
problem was that we were not submitting the paperwork through 
Maryland prior to the placement of the children.
    This issue was a compliance issue with the agreement that 
requires prior approval by a State when the child from a 
different State is placed in that jurisdiction. We have 
entered, as was previously stated, into a formal agreement now 
with Maryland that is intended to have us work together to not 
only resolve the current situation but also to put in place a 
longer term agreement that will prevent such problems in the 
future.
    I am most pleased to report to you that, in contrast to 
last year, we have made great progress in the management and 
operation of the budget for this agency during this past year. 
Among the accomplishments has been increasing of foster care 
and day care rates. All of our continuing foster care day care 
and vendor payments have been brought up to date, and most 
vendors are being paid well within the District's payment 
schedule of 45 days.
    I'm also pleased to advise that, based upon the most recent 
review, we expect to end this year without a shortfall in this 
budget.
    To respond to the most critical areas of concern, I've put 
in place two emergency procedures. I've authorized--for the 
issue of expansion of resources. I've authorized that 
modification be made to contracts of existing District of 
Columbia vendors who have an immediate capacity to accept 
additional children for placement within the District. This 
will give us some additional slots while we complete the 
necessary paperwork for interstate placements where 
appropriate.
    To handle the additional contracting workload, we have 
hired two additional contract specialists to assist with the 
necessary paperwork. We expect to have a minimum of 20 
additional placements in the District within 2 weeks and 
another 30 available within 4 weeks.
    In addition, we are continuing to work aggressively to 
reorient our foster and adoptive home recruitment to keep more 
children in the District and in neighborhoods close to their 
homes. In June, we launched the Family to Family Project, 
funded in part by the Annie E. Casey Foundation. This is a 
neighborhood-based foster care--foster home recruitment project 
that is aimed at assisting is us in keeping children not only 
in the District but in their own neighborhoods.
    To address the additional staff needs in the Foster Care 
and Kinship Care programs, we expect to hire 22 additional 
social workers to fill the remaining vacant positions. Based 
upon the response that we received at the most recent job fair, 
we expect to meet our original goal of having commitments to 
fill the remaining vacancies by the end of this fiscal year. 
Further, I plan to hire 10 additional staff during October to 
ensure our capacity to offset ongoing turnover and maintain 
compliance with the MFO.
    Finally, we continue to work to improve practice at the 
frontline by providing clear expectations for staff, consistent 
supervision, and enforcement of performance expectations. These 
changes will not occur overnight, but I'm clear that they must 
occur.
    In conclusion, we have begun discussions with 
representatives of the Mayor's office, the plaintiffs and the 
Monitor to begin the process of preparing a transition 
strategy. It is my opinion that the agency will be in a 
position to initiate the remaining work required under the MFO 
during this coming fiscal year if the funding requested is made 
available. The processes have now been put in place to begin to 
develop the additional resources needed to meet the service 
needs of our clients subject, of course, to available funding.
    Thank you for the opportunity to address this committee. I 
ask only for your continued support in our efforts to achieve 
compliance with the requirements of the MFO allowing the return 
of the agency to the District government. I thank you.
    Mr. Davis. Thank you very much.
    [The prepared statement of Ms. Jones follows:]
    [GRAPHIC] [TIFF OMITTED] T4760.033
    
    [GRAPHIC] [TIFF OMITTED] T4760.034
    
    [GRAPHIC] [TIFF OMITTED] T4760.035
    
    [GRAPHIC] [TIFF OMITTED] T4760.036
    
    [GRAPHIC] [TIFF OMITTED] T4760.037
    
    [GRAPHIC] [TIFF OMITTED] T4760.038
    
    [GRAPHIC] [TIFF OMITTED] T4760.039
    
    [GRAPHIC] [TIFF OMITTED] T4760.040
    
    [GRAPHIC] [TIFF OMITTED] T4760.041
    
    [GRAPHIC] [TIFF OMITTED] T4760.042
    
    [GRAPHIC] [TIFF OMITTED] T4760.043
    
    [GRAPHIC] [TIFF OMITTED] T4760.044
    
    Mr. Davis. I'm going to start the questioning over on my 
left with Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman.
    Child and Family Services is failing to comply with the 
court order that social workers investigate reports of 
neglected children within 48 hours. Is that true?
    Ms. Jones. As I was attempting to clarify in my testimony, 
the way the process works is the call comes in and we have, 
according to District law, 48 hours to initiate the 
investigation. The modified final order requires us to initiate 
the investigation in 24 hours.
    We initiate the investigations in almost all instances 
within the time period. But when a report is generated off the 
system, it reflects when we have completed the entire process, 
and we are expected to complete that process within 30 days. 
And the numbers that I reported earlier reflect how we have 
brought the numbers down in getting those completed within that 
30-day period.
    Mr. Horn. Is it correct that the agency's Hotline receives 
at least 350 neglect reports each month?
    Ms. Jones. We receive at least 350. That goes up depending 
on the time of year. We receive a lot more calls, but when you 
break down the calls, it translates to approximately 350 a 
month.
    Mr. Horn. Now, I gather the GAO study did not address 
whether the delays had caused injuries to any children, and 
it's known that failure to thoroughly investigate reports in 
the past has led to child deaths. Doesn't that concern you?
    Ms. Jones. Certainly that concerns me, and that's one of 
the reasons why we insist on meeting the initial requirement of 
initiating a contact on each of the complaints within the time 
period. Absent having in my presence the GAO report, I was not 
clear as to what the context was in which they reported that.
    If they simply took the raw numbers and interpreted that to 
mean that we had not initiated contact, then that would be 
incorrect because we have initiated contact. That is to go out 
and attempt to see the complainent investigate the complaint to 
ensure that children are protected.
    Now, that's two different entities. We go out on the 
neglect. The police go out on the abuse.
    Mr. Horn. I understand that 18 children younger than 6 
years of age have been placed in group homes, some for as long 
as 2 years. Is that correct?
    Ms. Jones. I'm not aware. I would have to see what that 
report is. We do place some children under age 6 in group 
homes. I would prefer not to do that, but, unfortunately, not 
having a sufficient number of foster homes at any given time 
who can take them, we do end up with children under 6 in a 
group home which we do not want.
    What we have put in place, however--and that's primarily in 
two facilities that we have licensed as emergency placement 
resources for children under age 6. What we have put in place, 
though, is a process that allows us to get those children out 
of that group facility and into homes within a shortened period 
of time and now we pretty much are holding to less than 30 
days.
    Mr. Horn. Now 45 children have been placed in unlicensed 
foster homes in the District, and you also have noted that 
there have been, I would guess, licensed homes in Maryland to 
which a number of the children are put. Is that correct?
    Ms. Jones. Well, let me clarify two things. We do not place 
any child in a home that has not been licensed. But licenses 
must be renewed for all homes annually--biannually. What 
happens is--and I have the most current figures on that. We 
have 10 homes now where there are children as of this point, 
where there are children in a home without a current license. 
These homes were licensed. When they came up for the renewal 
they have to repeat certain processes. One of the ones they 
repeat is the parent has to get an updated medical.
    One of the problems we have encountered, and we are 
attempting to develop a plan to deal with this, is many of our 
parents are part of HMOs. When they attempt to get a medical, 
routine medical, many times they aren't able to get an 
appointment immediately to get that done. So that for that time 
period that it takes them to get their current medical, that 
home technically is unlicensed. They have met all the 
requirements. There is not a problem in terms of home and all 
of that. What we're attempting to do is to get another resource 
that they could go to to get that medical when they aren't able 
to get it done through their own licensed health care provider.
    Mr. Horn. You mentioned in your testimony the need for 
staff. And I gather we have about 3,000 open foster care cases 
in the District, and you, I think, believe that 80 percent of 
the social worker positions are filled resulting in high 
caseloads. Now, a lot of the universities in Virginia, in 
Maryland that would have an MSW, a master of social work 
degree, is there a possibility that you and others could talk 
to the deans of those schools and say isn't it about time you 
get some reality in these programs and let's have some 
internships to see what the world is really like? And has that 
been done and thought about?
    Ms. Jones. We work with all--in fact, the majority of my 
recruits come from local area universities. That has not been a 
problem. And, in fact, this past spring to now, we have been 
very successful in recruiting social workers with a master's 
level. We have also put in place a much more efficient system 
of helping them get licensed so that they can in fact practice. 
And we also instituted, at the request of Delegate Norton, 
bringing in bachelor level staff; and we're bringing them in 
and we're using them effectively.
    So that the issue is not that we are not now having success 
at recruiting and getting them in. But in the two program areas 
that I identified, Foster Care and Kinship Care, we continue to 
experience a heavy turnover in those areas. I don't need to go 
through all the reasons why they leave, but that area is one 
where we have experienced--continue to experience higher 
turnover.
    In our other areas we're just about at full staff--in 
intake, in Family Services, and right now in adoption. So the 
two areas that remain are Foster Care and Kinship Care.
    Mr. Horn. I've got two questions. Then I'll be done. But I 
think 40 percent of the District's foster children require 
special services such as various therapies and education. To 
what degree are they making those specialists to be able to 
handle some of these young people?
    Ms. Jones. That's one of the reasons why we have engaged in 
the process with mental health and with the substance abuse 
programs. While we know that many of the children need the 
help, the resource pool of services for children--now you have 
resources for the adults--has historically been limited in the 
District.
    You have got two ways you can get that. You can try and get 
the child where the resource is, which means you're looking at 
out-of-District placements, or you can try and stimulate 
development of those services here. Working with the Mental 
Health receiver, it's his belief that we can develop those 
resources here in the District. But to do that, he has to be 
able to stimulate the development, and that usually requires 
funds.
    Mr. Horn. Do we have some sort of nonprofit groups, such as 
100 Black men or whatever, that would be sort of a mentor to 
some of these children?
    Ms. Jones. We have a lot of mentoring programs. That is one 
service that we do not have a shortage of in terms of being 
able to find them--and a lot of the mentoring services are not 
even services where we have to pay for them. This is where 
groups voluntarily do this. We have not experienced difficulty 
in getting mentoring services, and tutoring service has been 
very effective.
    Now, where we experience difficulty is when you have a 
child that has what I call dual diagnosis, where you have 
multiple problems. Then that usually requires us to make a 
special arrangement for that child. And we try to do that, but 
unfortunately, the numbers of children with those kind of dual 
problems is high here in the District. And trying to buildup a 
resource pool sufficient to address that need has been 
difficult.
    Mr. Horn. My last question is, the Federal court has 
mandated a policy manual, and apparently they're simply sending 
newspapers around. What do you think about that?
    Ms. Jones. First of all, we have policies and procedures 
for each of our program areas. What we have been working on is 
pulling all of that together and synchronizing that with the 
automated system that we have. What we are trying to make sure 
of now is that in each program the procedures outlined in the 
policy track against the steps that a worker goes through in 
the system. We have been doing that, using workers, using 
supervisors, because it is important that the practitioners 
understand and help with how that process works.
    We have not finished all of them, but we are well--I 
believe at this point two of the programs remain to be reviewed 
and correlated with that. Once that happens, the manual then 
will be able to be on line to all workers. But as it stands 
right now we have policies and procedures in each of the 
program areas. They are on paper. They're in paper format 
because we don't want to put them on line until we're sure that 
all the steps in the policy are synchronized with the steps 
that a worker goes through as they navigate through the system. 
And that requires sitting down with each one, going through it 
one by one, and we have been doing that. I would expect, and I 
can't give you an exact time line, but we are very close to 
being able to put the policy manual on line. But I don't want 
you to assume we don't have policies and procedures. We do.
    Mr. Horn. Thank you, Mr. Chairman.
    Mr. Davis. Thank you very much, Mr. Horn.
    I recognize Ms. Norton for 10 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Let me say I appreciate the testimony of all four of the 
witnesses. I think the testimony has been enlightening and has 
at least caused me to think about some ways that might be 
totally outside of the box.
    We recognize that you are dealing with a problem that, 
throughout the country, has yielded unsatisfactory results. Our 
frustration comes because, although that is the case, we've got 
to deal with this case. And I think part of the problem may be 
that we are dealing with these cases as we have traditionally 
dealt with them, as if things hadn't changed, as if children 
weren't coming into foster care in huge numbers, as if there 
weren't a drug crisis out there, as if there weren't the 
breakdown of family life in the way that it was not when I was 
growing up as a child in this town.
    Let me first try to get a couple or three of the red flag 
issues that led Chairman Davis and I to know that something 
must be wrong, because we simply read them in the newspaper and 
the GAO report was not out.
    First, the State of Maryland. I want to say to Ms. Mouzon 
how much I appreciate her being here in particular. When we 
talk about D.C.'s children and family unification, there are no 
borders. So many of our folks have fled to Maryland. Perhaps 
that is the wrong word. ``Moved'' to Maryland. That everybody's 
grandmother and aunt and cousins are either here or there, and 
the cooperation that we've received from the State of Maryland 
is particularly important to us.
    Even if that were not the case, the District is a city. 
Every other foster care system at least has a whole State that 
it can look to rely upon because everybody wants to keep the 
children as close to home as possible, but at least you don't 
have to deal with somebody in another jurisdiction. So our 
problem is it is not only more difficult for us, it is more 
difficult for you. With a diminishing population, even though I 
hear what Ms. Jones is saying about more parents in the 
District of Columbia, one really begins to wonder whether we 
could ever be anything but inordinately dependent on the State 
of Maryland.
    Now, let me ask this straight out, Ms. Mouzon. As of 
yesterday, if a child needs to be placed in the State of 
Maryland, will that child be--from the District of Columbia, 
will that child be accepted and how long will it take for that 
child to be placed in the State of Maryland?
    Ms. Mouzon. The agreement that we entered into yesterday 
deals with two populations. One, those are the children who are 
already in Maryland from the District. The big issue for 
Maryland is that we need to know that the clearances that are 
conducted include Maryland Child Protective Service clearance. 
There is no mechanism in place for the District to enter into 
our system and determine whether or not a parent or a relative 
who comes forward as a potential foster parent, has been a 
perpetrator of abuse in the State of Maryland, and that's why 
we are insisting on the ICPC process being utilized.
    Under the system we put in place yesterday, we do allow for 
emergency placements. So what would happen is certain homes 
would be designated by the District of Columbia as emergency 
homes, and those children could enter those homes immediately. 
We also have asked in the terms of Kinship Care that certain 
requirements be met, including that they contact the State of 
Maryland so that we can check our automated system to ensure 
that what do not get what we call a hit, in other words, that 
person is not known to us through our Child Protective Service 
System. And once we know that those paperwork pieces are in 
place, we would allow that child to be placed.
    So we're not talking about a delay. We are talking about a 
system that will allow those children to enter into Maryland 
and then for us to finish with the requirements of the ICPC 
system after the placement is made.
    In addition, we would also have a group that is licensed by 
the State of Maryland provide us with the home studies due to 
the volume, because we do realize that it would be a resource 
issue for the State of Maryland. As you pointed out, we do 
realize that many people have left the District and are now 
living within our borders. Therefore, we don't want to prohibit 
those placements because we do want to help the District move 
those children as expeditiously as possible.
    Ms. Norton. You are perfectly justified, it seems to me, in 
making sure that your own standards are met. But, as I hear 
you, at the very least a child would be put in an emergency 
home, and there would be no delay in order to matriculate 
through the requirements.
    Ms. Mouzon. That's right.
    Ms. Norton. This is very important to us. The GAO says 70 
to 90 percent of District children requiring home placements 
are placed outside of the District of Columbia, usually in 
Virginia or Maryland. We have no hope without you.
    Let me ask a question of Ms. Jones. Ms. Jones, part of what 
brought this to our attention was whatever happened with the 
Superior Court. I'd like to know if your initial refusal to 
appear was on advice of counsel or was a decision that you 
yourself made and whether or not the decision to appeal was on 
advice of counsel or something that you requested?
    Ms. Jones. Ms. Norton, you know that this issue is still 
pending before Judge Christian; and I think that it would be 
better if I did not go into detail on it. But I will say that I 
meant no disrespect to the Judge and feel strongly that our 
agency must cooperatively work with Judge Christian, and all of 
the judges because we have a common goal. It is my hope that we 
will get this resolved quickly and that we can, in fact, move 
forward with the work that we were doing before this incident. 
I regret that this happened and have assured the Judge that--
the court that this kind of an incident will not occur again as 
far as I'm concerned.
    Ms. Norton. Ms. Jones, I was under the impression that the 
appeal had been withdrawn and, therefore, that the matter 
involving you personally would not any longer be before the 
Superior Court. What is pending before the Superior Court with 
respect to you personally?
    Ms. Jones. The entire thing is still pending at this point.
    Ms. Norton. The contempt citation?
    Ms. Jones. The entire thing is still pending.
    Ms. Norton. I certainly wouldn't ask you to incriminate 
yourself.
    There was a report, a very troubling report--again, we can 
only go by what we hear in the newspapers on this--that there 
were children once again being housed in office buildings in 
the absence of homes for these children or foster parents to 
take them.
    Is that occurring now at all? Is there a single child that 
overnight has to be put up in a city office building or 
anything other than a group home or a foster home?
    Ms. Jones. There--let me be clear in saying that there have 
been instances in which a child has had to remain overnight in 
our--what we call reception center. Now it was I think 
mislabeled respite center and sent the wrong message to many 
people.
    What we have found--we have analyzed what has recently 
occurred that caused all of this to begin to happen. What we 
found was that a number of our providers felt that they could 
not maintain a given child in their facility, and so the child 
was being brought back to us. And when we get children in that 
kind of a situation, we have to then find another placement; 
and, generally speaking, we're not going to be able to find a 
placement the same day that the child comes in. Most of the 
times we do, but there are situations where that doesn't--does 
occur.
    One of the changes that I have instituted is that we are in 
the process of establishing a contract with a vendor where--
with a group facility where we can, in fact, place a child on 
an emergency basis if, in fact, we get a situation where we 
cannot immediately find a placement for a child. But there have 
been some instances in which that's occurred. We tried to keep 
it at minimum but, unfortunately--we always have new children 
coming in. The police bring them to us immediately, and that 
can happen any point in time. If we get them earlier in the 
day, we usually are able to find places----
    Ms. Norton. Ms. Jones, that is something that is perfectly 
understandable. You can't know when somebody will say, I can't 
take this child, you go ahead and take it back. I don't have 
any legal responsibility for this child.
    At the same time, that is perfectly predictable. See, what 
is bothersome to us is that something that is absolutely 
predictable, it must happen, that you are now seeking a vendor.
    Ms. Jones. We've had--we've had vendors. The unfortunate 
thing is that a number of these children are coming back from a 
vendor.
    Ms. Norton. The point is that there is not in place now a 
vendor who can take these children overnight so the children 
have had to be placed in an office building, and that is the 
kind of thing that was predictable, and it is the kind of 
criticism that the agency is going to continue to get if it is 
not proactive in dealing with predictable problems like that.
    There were reports, big complaints about foster parents not 
receiving their checks. Now as hard as it is to get foster--
people to be foster parents, that problem only would deter 
people from coming on board, I'm sure you would agree.
    Ms. Jones. That is--I'm pleased to report that is no longer 
a problem. We have got--our fiscal system is in very good shape 
now in terms of paying our vendors. I think if you asked any of 
our larger vendors as well as the foster parents, we are paying 
our vendors now on time. It's invoiced now, rather than the way 
it used to be. We generate an invoice, and they submit their 
invoice. We clear it. Because we can now track the children in 
the system, and we authorize--send the paperwork on to the 
District. But we are paying, and we've instituted the grant 
increases.
    In fact, I would say to you that I think the foster parents 
are now very satisfied--for the most--I'm not going to tell you 
that there is not a case where something might happen, but for 
the most part our foster parents are very pleased with the 
progress we are making in addressing their concerns. We haven't 
addressed them all, but they--now work with us and have said to 
me personally that they feel that we are responding to their 
needs.
    Ms. Norton. I see that my 10 minutes is up.
    I must say that I have heard improvements in this system, 
that it is not as bad as we thought it was. But it is still, in 
my judgment, in crisis.
    In my next go-round I would like to pursue alternatives, 
because I believe that in a real sense you are on a track that 
is not going to ultimately lead to the kind of solution you 
want or, for that matter, Ms. Lopes, that the city will do much 
better given the way--given the matrix somewhere out in the 
1930's that we are using as a way to deal with foster children.
    Mr. Chairman, do you want--what does the chairman want me 
to do now that the bell has rung?
    Mrs. Morella [presiding]. The gentlewoman's time has 
expired, and I will precede with the questions before we go to 
vote.
    The chairman of the full committee had joined us, but he 
did not have a statement to make at this time.
    I want to thank you all for being here, and I think you 
have heard over and over from us how important this issue is. 
And I want to thank you, Mrs. Mouzon, for coming here from the 
State of Maryland to comment on what the concerns are and maybe 
how we can solve them.
    So the questions I will ask will probably be directed to 
you with regard--also, Ms. Jones responding, if anybody else 
wants to respond.
    I note in your testimony you indicated that one of the 
major barriers is this two-pronged agency bit where you--two 
separate offices that you have, the District interstate compact 
office and the District receiverships share the responsibility 
for placing the children outside the District, but they have 
different departments and different offices. And with this 
separation it makes it very difficult and adds a barrier. And 
I'm just wondering, you indicate the State of Maryland is 
willing to work with the District to complete the interstate 
compact. What is that situation right now? I mean, is the 
District cooperating? Where are you? How fast are you traveling 
in that? Do you see remedy?
    Ms. Mouzon. We feel that we are getting cooperation now.
    The issue for us--as I indicated earlier, is that Maryland 
is a border State. With our other States we are only dealing 
with one agency. With the District of Columbia, the interstate 
compact office lies in the Department of Human Services, 
whereas the responsibility for the foster children lies in the 
Child and Family Service Agency.
    So when we enter into negotiations with the District of 
Columbia, we are bringing several groups of people to the 
table. One group is responsible for tracking the children and 
telling us where they are; another group is responsible for 
keeping track of the interstate compact issues.
    We also know from some of the discussions with our private 
providers there is a small minority of children that are placed 
particularly with relatives, directly into some of our 
neighboring counties and particularly by the court. As a result 
of that, we don't have a mechanism in place where we can talk 
to just one person and determine exactly which children are 
within our State. And that's the barrier that we are talking 
about.
    We are willing to work with all of those agencies, but 
certainly it is much easier when we can get that one signature 
that we get from the other States and then we are able to enter 
into the interstate compact and not have to go any further in 
dealing with other agencies.
    Mrs. Morella. Are you hoping that will be one of the 
recommendations from this subcommittee, that this be worked out 
to facilitate it? I mean, where do we go from here?
    Ms. Mouzon. We are hoping that would happen. That would be 
most advantageous I feel not only for the District in terms of 
some of the issues that I have heard discussed this morning but 
also for our partners in Virginia as well as to any of the 
other States that enter into compact agreement. Because of the 
way adoption is under the Safe and Stable Families Act, we now 
put all our children on Internet across the Nation, and for any 
State it would be the same issue if we tried to place children, 
not only from Maryland but also the District, because you would 
to be able to deal with one entity.
    Mrs. Morella. Let me ask another question. In Maryland, if 
a child is ordered out of a home and placed in the care of a 
relative, does the State inspect the home to ensure that it 
meets the needs of the child?
    Ms. Mouzon. Yes, we do. We require the same inspections for 
our Kinship Care providers--that's what we call a relative--as 
we do for our Foster Care providers; and, therefore, we have 
the same medical requirements, we have the same fire 
inspection, the same health inspection. We also have training 
that we require of all of our foster parents or relative 
parents in advance.
    In addition, we have support groups throughout the State 
for our relative providers because we know it's difficult.
    Mrs. Morella. Is a social worker also a part of that team 
and followup with visits?
    Ms. Mouzon. Yes, they are; and they have to see the 
relative provider on a regular basis.
    Mrs. Morella. How long do you think it's going to take to 
identify and inspect all of the homes where children have been 
placed in violation of the interstate compact?
    Ms. Mouzon. According to the agreement that we reached 
yesterday, it is expected that all of the family foster homes--
which does not mean Kinship Care providers--that those reports 
would be finished by the end of October. And we expect to 
finish all the relative providers by the end of December of 
this year. So, therefore, we would enter into--well, the 
District will enter into an agreement with the provider who can 
complete all of those home studies.
    Mrs. Morella. Is the District of Columbia working with you 
to inspect and monitor these homes?
    Ms. Jones. Yes. First of all, the traditional foster homes 
have already met all of the requirements. We have to complete 
that and work it through so that Maryland has the record of 
that, so that's why that group will not take as long.
    With the relatives--and in my testimony I reference the 
fact that the change that was brought on with the Adoption and 
Safe Families Act is that, we, too, require the exact same 
requirements of relatives as is required of traditional foster 
homes. The problem that we encountered is we had a large group 
that were already doing this that previously were not subject 
to the same requirements. So now we have to go through a 
process of getting all of those homes into the system.
    But now, even relative homes, we do the clearances. They 
are required to meet the same requirements. They are required 
to go through training. And we in the District also require all 
of our foster parents and relatives now to have in-service 
training. So it is not just training you get before you become 
a foster parent. It is required on a biannual basis that a 
certain number of additional training hours must be continued 
after they become foster parents.
    So, we are not asking not to have the same requirements. 
What we are saying is that there is going to be a period of 
time for us to get all of the ones that were in the system 
already in compliance and for them to be registered through the 
interstate compact. That's why it will take us a little bit 
longer on those.
    Mrs. Morella. Final question is, it has been reported that 
Maryland waited over 18 months for a report from CFSA on the 
number of children placed in homes in Maryland that were in 
violation of the interstate compact and that when CFSA finally 
provided the numbers to the State they were wrong. Is that an 
accurate assessment? And is that because of the lack of--if 
that is accurate, is that because of the lack of coordination 
between the agencies?
    Ms. Mouzon. The list that we received we were not able to 
track because we needed things like date of birth. We also 
needed the exact addresses. When we did receive that list we 
were told that it was not accurate. The next list we received 
did not have the addresses of the homes.
    I don't want to speculate on why it could not come from the 
District. I just know that we were not able to then take that 
list and match it against our interstate compact list to 
determine which children had actually gone through the compact. 
And it was a little lengthy time there before we were able to 
get a list, and we do expect to get that list by the end of 
this month.
    Mrs. Morella. If I were to just very briefly ask one final 
question and then rush off to vote. Ms. Mouzon, do you want to 
ask Mrs. Jones anything? Is there anything that you want the 
record to show?
    Ms. Mouzon. We met for an extremely long period of time 
yesterday, and I was very pleased with the agreement that we 
came to at the end. So if the District honors everything that 
is in the agreement, we should not have any issues from here on 
out as it pertains to children being moved from the District 
into Maryland in an expedient manner.
    Mrs. Morella. Anyone else want to make any statement? Mrs. 
Graham. Ms. Lopes.
    Well, I know that Ms. Norton probably has a few more 
questions she wants to ask. I don't know what the procedure is 
on this committee, but as far as I'm concerned it is a 
bipartisan committee, and I would--as I go to vote, I would be 
willing to let her have the gavel and ask questions.
    Ms. Norton [presiding]. This is a temporary leave of the 
gavel.
    Mrs. Morella. Don't complain.
    Ms. Norton. I won't. Thank you.
    In light of what Ms. Mouzon testified, that with other 
States, because there are other States who also have children 
in Maryland, the State of Maryland deals with one agency and 
with D.C. there are several agencies at the table. And, you 
know, there is the ICPC effort, and the ICPC office has to 
obviously deal with the receiver. Then there are the court 
services agencies and others that obviously need some 
interfacing here. Which raises questions, really, for Deputy 
Mayor Graham and is related to the finding of the GAO that 
there was no policy or protocol for the relationship--for the 
working relationship between the District agencies that are 
often central to the problem, and the GAO even says that there 
is reliance on verbal or oral communication.
    I'd like to know, Deputy Mayor Graham, what is your role in 
assuring that the agencies of the District of Columbia are part 
of solution and not part of the problem? And why is it that 
there cannot be one person sitting toe to toe with Ms. Mouzon 
and her folks, just as there is when she deals with people from 
West Virginia or Virginia?
    Ms. Graham. Ms. Norton, when the Williams' administration 
assumed responsibility for the District government, one of the 
first things that the Mayor wanted to do was to understand how 
this child welfare system functioned, because he wanted to make 
a real commitment to the work associated with foster care and 
adoption; and he asked me to do an assessment or a study of 
that system.
    We did. We released a paper last year on the 
dysfunctionality between the receiver and the other District 
government agencies which impacted the receiver's ability to 
affect good outcomes for children in the system. One had to do 
with the licensing process of Foster Care homes, one had to do 
with fire inspections, and so forth and so on. The interstate 
compact office should have actually gone with the receivership 
when this agency went into receivership. Instead, it stayed in 
the Human Services Department without little direction or 
oversight from the administrators of that department.
    Ms. Norton. Why didn't you all just ask for it to go in 
there? If that was a coordination problem and you couldn't deal 
with it, why didn't you say to the court why don't you take 
this so they could coordinate this?
    Ms. Graham. We weren't here at the time.
    Ms. Norton. Well, you are here now. You have been here over 
a year now. Bring this up in the middle of this--because it 
does seem to me, when you have a problem, you have got to find 
a solution. You should have been there. OK, court, you took it. 
We can't do anything with it over here. You take that, and 
let's get it done. Why not do that then?
    Ms. Graham. Well, instead of doing that, what we did was to 
begin to work very aggressively with that office and the 
receiver trying to overcome many of the issues.
    Ms. Norton. Ms. Lopes, as we listen to--Ms. Lopes, I'm 
sorry, and Ms. Graham, you know, I just point this out as a 
case example. Instead of working your buns off to do what you 
think is basically impossible or getting a half-baked solution, 
we need structural thinking here. The court--if you say to the 
court, I can't do the job very easily with it bifurcated this 
way unless I spend a whole lot of time trying to build arteries 
and veins between these things, then if you think structurally 
and put the--what's it called?
    Ms. Graham. ICPC.
    Ms. Norton. ICPC with that, then that just might allow you 
to work on the real problems, rather than coordination 
problems, and Ms. Mouzon tells me that the other agencies don't 
even have in the first place. I just point it out.
    One of the things we want to have come out of this hearing 
is thinking totally outside the box. We are tired of hearing 
about how we are trying to get everybody together and we work 
30 hours a day trying to get them all together. We believe that 
part of what you are doing is impossible to do because you are 
accepting the present configuration and it does not fit. So 
that if you find that, you know--and I picked this up only 
because you said it--that it will put more work on you because 
something is placed someplace, then place it someplace else. Go 
ahead, I'm sorry.
    Ms. Graham. I fully agree with your assessment, Ms. Norton. 
What we've been trying to do, though, in working with the 
receiver is to overcome some of the structural issues, to put 
in place some of the things that needed to be put in place, to 
ensure a smooth transition back to the District.
    We make no excuses for the dysfunctionality that exists, 
recognize it and are seeking to work to overcome it so that the 
agency can achieve its goals and can, in fact, be returned to 
the District's governance structure.
    Ms. Norton. Let me be more direct. Could you, by working 
with--recognizing that you're trying to get the agency back, 
which would make this easier--could you on the District side 
get the District agencies together so that working with the 
receiver you could not create more work for Ms. Mouzon but put 
one person there--maybe you, Deputy Mayor Graham--who would 
say, I now speak for the District of Columbia and all its 
agencies and the interstate compact, and this is what we 
propose. Could that happen?
    Ms. Graham. I am that person. I'm one of the signators on 
that ICPC.
    Ms. Norton. She says there are several agencies that she 
has to deal with.
    Ms. Graham. She has to deal with the Department of Human 
Services. As the interim director of that agency--and the ICPC 
is in the Department of Human Services, so I'm responsible for 
that ICPC. That's why I've signed the Memorandum of 
Understanding. We are working together now. I am at the table 
now.
    Ms. Norton. Let me make sure that Ms. Mouzon and you have 
the same understanding. Ms. Mouzon, is it your understanding 
that you only have to deal with Deputy Mayor Graham now in the 
placement of children in the State of Maryland?
    Ms. Mouzon. Not exactly. I thought I also had to deal with 
the receiver. And I do know, in further discussions that we had 
yesterday--I don't know if your representative got back to 
you--there are also some issues in terms of your interfacing 
with us for the courts. I think there are two people at least, 
maybe three. Because I know in Maryland the judiciary is 
separate from the executive branch. I think that might be a 
little bit true in the District, so we may have to have some 
further discussions, but I'm not clear.
    Ms. Norton. Let me tell you what I'm asking you to do, 
Deputy Mayor Graham. I believe that if the issues were brought 
up in advance with the receiver--and with the courts, for that 
matter, separate branch though it be--that our goal should be 
to face Maryland with exactly what she faces from the other 
States that place children in Maryland.
    And I think that our goal should be that even more than the 
other States, because I would venture to say that we probably 
have a disproportionate number of children, certainly, per 
capita and that as long as she has to deal with a more 
complicated system, that unravels down to the child itself and 
delays somehow for that child itself, relative to a child from 
West Virginia or Maryland or some other State.
    So what I'm asking you now is, are you prepared to create a 
system where there would be one person to interface with Ms. 
Mouzon and with Virginia?
    Ms. Graham. I am prepared to do that, but I think the point 
that Ms. Mouzon was making is that as long as this agency is in 
receivership, she deals with me and she deals with the 
receiver.
    Ms. Norton. I do not accept that, and that is just the kind 
of in-the-box thinking that I am trying to press you out of. I 
believe that working with the receiver----
    Ms. Graham. Absolutely.
    Ms. Norton [continuing]. You would not have to regard her 
as some kind of separate box so long as you and the receiver 
agree upon what Ms. Mouzon was to be told with respect to the 
receiver's duties. So I don't accept the notion that the 
receiver has to be there. I don't accept the box notion of how 
this is. That is part of the problem and your answers 
illustrate that to me.
    I ask again because West Virginia--every one of these 
systems are messed up. All of them or most of them have some 
kind of court stuff in them. So you're no different from the 
rest of them in that respect, and yet she does not have to deal 
with two or three entities. But again, are you prepared to work 
out an understanding with the receiver and the courts as they 
may be involved, so that Ms. Mouzon is dealing with one person 
and one person only so as to facilitate rapid placement of 
these children in the State of Maryland and, for that matter, 
other States as well?
    Ms. Lopes. Ms. Norton, if I could interject for a moment. 
This is--in order to do that, and there is a lot of out-of-the-
box thinking going on--in order to do that, we clearly need the 
approval of the Federal court.
    Ms. Norton. You see that. Everybody stop and listen to 
this. As if the court would be the problem. You know what 
courts need? Particularly when we are talking about courts who 
sit only to hear from people who come and tell them what it is 
you want the court to do? So, Ms. Lopes, don't you get to be 
part of the problem.
    Ms. Lopes. I don't think I am.
    Ms. Norton. You do not have to tell me, who is also a 
practicing attorney with a bar license in the District of 
Columbia, that in order to do what I am saying to do, if there 
is someone the court hasn't spoken to, that you may need to go 
to the court and say does the receiver have the permission to 
negotiate with the Deputy Mayor. That is the kind of structural 
response we have consistently gotten from the foster care 
system.
    I am trying to kick that out of your brain; to say if there 
is an impediment, so that you immediately move to the next 
level of thinking and say well, what's the answer to that 
impediment? OK, ask the court: Court, do you have any problem 
with my dealing with the receiver, dealing with a Deputy Mayor? 
Because the District, unlike every other State, has several 
different entities before a child can be placed in Maryland, 
and if we have your permission to work this out we are prepared 
to put one person before them.
    I don't want to hear about the court unless you're going to 
tell me that you are prepared to ask the court to do what I can 
say, without fear of contradiction, that I believe a court 
might well do.
    Ms. Lopes. Ms. Norton, if I could finish.
    Ms. Norton. I hope you will finish more than telling me you 
got to ask the court, because you try my patience when I hear 
that kind of response.
    Ms. Lopes. Unfortunately, we do harbor under court orders 
and we are subject to the court's jurisdiction in this case. 
Now, with respect to that issue, there are many creative and 
out-of-the-box discussions going on in these negotiations. Many 
of them include a shift in paradigm, a shift in thinking that 
is very consistent with what you are recommending that the 
parties explore.
    Ms. Jones. May I make a comment?
    Ms. Norton. You see what I mean? I asked a very specific 
question; I get a very general answer about paradigms. All I am 
saying, I asked you a very specific question, and I think Ms. 
Graham has said that she is willing to act as the person and to 
enter into negotiations. Ms. Lopes intervened to tell me what I 
think even the average layman knows, that if there is an 
impediment that means you got to ask permission of the court. 
You have to do it, granted.
    All I want to establish here with Ms. Mouzon sitting at the 
table is that the District is prepared to give her the kind of 
system she deals with in the other States. I don't think it is 
fair to say to the State of Maryland, you got to deal with us 
in some special fashion because we can't get our act together 
to straighten it out, because you have to understand we got 
courts and we got receivers.
    Anybody who is looking at what the GAO has done with 
respect to foster care systems around the country has 
absolutely no sympathy with your notion that other States 
somehow have it easier. They have the same kind of problems, 
the same kind of court orders, and yet Ms. Mouzon deals with 
one person.
    This plan that the chairman has asked for in 10 days better 
not come back with notions ``if the court says,'' or whatever. 
It ought to come back with, for example, if a court order is 
necessary or presenting the matter to the court for permission 
is necessary, with the notion that we are prepared to ask the 
court for permission to do this within a time certain.
    Thank you Mr. Chairman.
    Mr. Davis. Thank you, Ms. Norton. For the record, I am also 
a licensed attorney in D.C. I thought I would point that out. 
And clearly we just need everybody working together. If we get 
everybody working together, can we get a plan in 10 days? Is 
everyone willing to commit to get a plan in 10 days.
    Ms. Jones. Yes.
    Ms. Graham. Yes.
    Mr. Davis. That's all we want to see. We just want to get 
this focused on a plan and implement the plan. That's really 
what this hearing is about. We can go back, and there is plenty 
of culpability to go around for everybody on this.
    I want to just ask a few questions if I can. Ms. Jones, you 
talked about maintaining the appropriate staff and your 
recruiting and so on, but one of big problems seems to be 
retention. And I want to ask you: Are you doing exit interviews 
to pinpoint the reasons employees leave the agency in droves. 
Or are you just so overwhelmed trying to keep it set?
    Ms. Jones. No, we do exit interviews with everyone that 
leaves. The turnover has shifted some. We're still losing some 
staff, but I've been conducting an analysis of the turnover 
since May and our turnover rate has dropped dramatically. We've 
been averaging now about six employees a month, whereas before 
we were averaging--last year, of course, we lost 40 in 1 month. 
But our turnover has come down dramatically.
    The primary area where we are losing staff now is in Foster 
Care, that is workers that work in Foster Care and Kinship 
Care. And I think there are some variables that are influencing 
that, not the least of which is the amount of attention that 
has been given--public attention that has been given to it.
    The staff have developed their own committee that works on 
making recommendations about things we can do to help encourage 
employees to remain in the agency. And I act on just about 
every recommendation they present. Now, I certainly don't do 
anything that is outside the bounds of what is responsible 
management. But I believe that if we can get a period in which 
there is less public attention on the intricacies--and I know 
that you know that may not happen--I think that will slow down 
the reason why many workers leave. These young workers are at 
the beginning of their career and they, too, have to weigh 
whether or not they want to continue to work in an agency where 
this will potentially influence their ability to get jobs 
elsewhere. So they leave.
    But I think we've slowed that down a lot. I don't think 
we're over the hump, but I think we're in a much better 
position now than back in the spring.
    Mr. Davis. Let me take it another step further. I know in 
one case in press accounts, you called a social worker, one of 
the ones that needed to go, and kind of were blaming the social 
worker. So I don't know the specifics of that problem; but in 
your judgment, do social workers have confidence in the agency 
and do social workers trust leadership right now under this 
court receivership? GAO told us that social workers feared that 
they'll be blamed for problems that are not of their making. 
All of that sort of has a morale problem in the agency.
    Ms. Jones. Sure, that affects morale. One thing I am 
comfortable about is that we've not structured a process in the 
agency that lays the blame on the workers. That's not to say 
that--I do not believe that social workers should not be held 
accountable for the work they do. And while I recognize that in 
many instances a worker may have more cases than what they 
should have, that does not mean that when they are working on a 
case they should not do the best quality of work that they can. 
And the overwhelming majority--let me put it in perspective. 
The overwhelming majority of our workers are doing a good job. 
Just looking at the issue of court involvement, we have roughly 
10,000 cases a year that go into court. Now, we only have a 
population of roughly about 3,000 children in of-out-home care. 
But we are in court on about 10,000 hearings a year. Of that, 
we're talking about 200 that generally fall into the category 
of where we are failing to meet the requirement. And more often 
than not, those cases are associated with a caseload where 
we've had turnover.
    What we're trying to grapple with is to get the stability 
there. If we get it there, then I think we will deal not only 
with retention but we will be able to zero in on the quality.
    Now, when you've got a work force where more than half of 
the staff are relatively new, you're dealing with inexperience, 
you're dealing with workers that have to be nurtured and 
supported, you're dealing with workers that need to have legal 
representation when they go into court because they are afraid 
to stand on their own.
    Mr. Davis. Now, you mentioned in discussing the Foster Care 
and the Kinship Care programs, that the CFSA is going to 
contract temporary social workers, I guess, as kind of a stop 
gap. Let's think aloud on that. Is that wise? Is this an 
improvement or is this just because you're so overwhelmed and 
you want to get somebody up there that you're willing to do 
this short term with temporary workers? What kind of continuity 
of care do you foresee these children getting if their social 
workers are constantly changing?
    Ms. Jones. I don't see that as the solution to the problem. 
For example, what I am trying to buffer against is if you've 
got a worker who notifies you that they are leaving, you know, 
in 2 weeks this is one of the things that you have to plan for. 
And that is the reason why I want to be able to hire more 
workers than what I need. What you have to plan for, then, is 
what's the window of time it's going to take before you get 
another full-time licensed worker on that caseload and how do 
you help that supervisor at least do some of the staff work, 
the legwork on a case, to go out and do visits, to write up the 
reports that need to be done?
    Mr. Davis. Let me ask this. With the addition of the new 
full-time social workers to your staff, how many children is 
each social worker responsible for?
    Ms. Jones. It varies according to programs. In Foster Care 
it is supposed to be 1 to 20. For family services, Kinship 
Care, you're dealing with families, it's 1 to 17. In adoptions 
it's 1 to 12--I get them mixed up sometimes. I can give you the 
exact count later.
    Mr. Davis. Let me ask Ms. Mouzon what about the numbers in 
Maryland, do you know?
    Ms. Mouzon. Maryland is undergoing accreditation and 
therefore we have had some graciousness from our general 
assembly, which allows us to move the Child Welfare League of 
America Standards, so therefore we are in a court decree in 
Baltimore City which allows us 1 to 20 in Foster Care, 1 to 30 
for Kinship Care. But under the Child Welfare League of America 
Standards, that lowers our caseloads. And we will be following 
those standards beginning next year, which in our--CPS, it's 1 
to 13. Thank you. I was going to say 12. And Foster Care will 
be 1 to 15. The same in Kinship Care. And then we are also 
running some pilots where we have one worker assigned to eight 
families.
    Mr. Davis. Let me make an observation and see if this is 
right, because I think we all recognize this is not stable, 
this is not where we want it to be. I think we all acknowledge 
that, for various reasons, today we don't. We would want to 
meet those standards in the city and it could be argued that in 
the city you're more likely to get a tougher type of case then 
you do, on average, out in northern Virginia or out in Maryland 
in some of these cases.
    Ms. Mouzon. We also have Baltimore City, and Baltimore 
City----
    Mr. Davis. I am not trying to compare, but city cases are 
tougher than suburban cases on average.
    Ms. Mouzon. I will say this. We have had some issues in 
Maryland particularly that dealt with turnover. We had a bill 
that was passed 2 years ago called House Bill 1133, which 
allowed us to increase the salary that we pay our workers, also 
allowed us to provide our workers with more training and to 
decrease our caseloads. We also dealt with the issues of 
retention of our staff and have instituted some programs that 
allow staff recognition. We also pay hiring bonuses. These 
things have brought a lot of stability to the staff within the 
State of Maryland.
    Mr. Davis. This is a good economy and people who are 
talented and trained have a lot of options. And that doesn't 
mean working for the court receiver and doing some of the 
toughest cases in the country with an overworked caseload, and 
that is the bottom line. What we want you to do in this 10-day 
plan we want you to come up with, let's meet these standards. 
Let's not go to the waive standards, or 1 to 20; come to the 1 
to 15 if that's what it takes, if these are the standards. 
Let's talk about what it takes to get there. Let's talk about 
what it takes to stay there.
    And, look, I think all issues are on the table. This is a 
very critical issue for the city, because we can see these kids 
further down the road in another venue if we don't take care of 
them here. We would like you to do that. It is not unlimited 
money, but that's a part of the problem. But a lot of it is 
just management and getting the caseload management and a 
little extra money sometimes. A little extra management care 
can help you retain people.
    We've got to get this thing back. It's not where we want it 
to be. And the difficulty now is the accountability. People who 
are reporting to each other aren't accountable to the same 
people. And it is just not working. So put the finger pointing 
aside. If we can have you all sit down and come up with a 
program where we can be in a very short period of time, the 
resources it's going to take, and what the accountability will 
be, I think we'll come away from this hearing having 
accomplished something. And we can come back and review this in 
January in terms of seeing how it's implemented. And if it's a 
resource issue, we need to know that. The sky is not the limit.
    But I'll tell you, what we have now, you can pour millions 
more into it, and under this, the way we are looking at it, the 
way it is operated right now, that's not going to solve it. You 
got to work it smarter. We have to have the programs and the 
protocols and everything up. And it's just not there. And one 
of reasons, in fairness, Ms. Jones, to you and everyone else, 
is when you're so overwhelmed, you don't have much time to be 
proactive. You're just trying to cover cases. You're just 
trying to get visits. I know what it's like. So we need to get 
this stable, and we need everybody working in the same area.
    I feel really pretty good about the fact that they have 
told us here that they will come back in 10 days and they think 
they can all work together. And we need to bring the plaintiffs 
in, too. They are obviously a piece of this. We've had problems 
in the city before where you have the suits and the plaintiffs 
don't want to agree, and it just holds up progress. But we need 
to get everybody going in the same direction.
    Let me just recognize the chairman of our full committee is 
here, Mr. Burton, and he did not want to say anything before 
but I know he has an interest in this. And, Dan, if you would 
like to say anything before we conclude, we'd be happy to.
    Mr. Burton. The only thing I would like to say is, first of 
all, I appreciate you and Ms. Norton holding this hearing 
today. I, when I was a boy, went through the kind of situations 
that a lot of these children are going through and I am very, 
very interested in it. And anything that I can assist Mr. Davis 
and Ms. Norton in doing to help solve this problem in 
Washington, DC, I want to do. And whatever it takes, I'll be 
supportive. The situation, as I understand it, now is an 
intolerable one and it has to be corrected very quickly, and so 
you have my full cooperation, Chairman Davis.
    Mr. Davis. Thank you very much, Chairman Burton. I think 
Ms. Norton wants to say a couple comments. And I think we can 
sum up and let you go. Let me just say on behalf of the 
committee, we appreciate everybody being here, and if we can 
solve this problem we will have accomplished what we are trying 
to do.
    Ms. Norton. Thank you, Mr. Chairman. Just a couple of 
questions.
    Ms. Mouzon spoke about hiring bonuses. We know people are 
doing that for teachers. I wonder--and apparently they are 
doing it also for social workers in Maryland--are we doing 
anything like that in the District of Columbia?
    Ms. Jones. We did step increases for social workers who had 
outstanding records in school. We have not done the bonuses, 
although we have submitted that as one of our requests in this 
fiscal year's budget. Yes, we do have it on the table.
    Ms. Norton. I think looking at the best practices in the 
region, I think that is something that is worth looking at.
    Finally, I think we ought to ask Ms. Lopes about the 
transition work in which she's been involved. Ms. Lopes, you 
will have to forgive me for my impatience. I believe that you 
and the other three witnesses, including Ms. Mouzon, are 
dealing in an impossible system, and to the extent that you 
accept the premises of the system, it does seem to me that we 
are going to be in difficulty. I know that in--I think it was 
Ms. Jones' testimony--there were discussions of the children's 
villages. Is it your testimony?
    Ms. Graham. It is in my testimony.
    Ms. Norton. Deputy Mayor Graham. I know we have some Boys 
Towns coming in the District of Columbia. Mr. DeLay, who knows 
this problem thoroughly, indicated to me that those kinds of 
solutions are the kind of breakthrough solutions that he is 
seeing around the country; that if we keep dealing with these 
one on one, foster homes, many of which are not equipped to 
accept children, you know, which comes out of the thirties when 
people would take in another child when they already had 
children in the home and things worked out all right--if we 
keep dealing within that system, we will leave most of these 
children right where we have them.
    That's why I want to encourage us to think straight outside 
of the box, to understand that in a real sense you could help 
redesign another way to deal with foster care. And the one-on-
one Foster Care way has worked nowhere in the United States, 
and I don't expect D.C. to leap forward and somehow find the 
magic solution operating within the premises of the present 
system.
    Therefore, Ms. Lopes, you have to understand I am a lawyer 
who has spent her entire career trying to think as little like 
a lawyer as possible and more like an innovator. I chaired the 
Equal Employment Opportunity Commission, where if I had kept 
thinking like they were thinking, which was you had to resolve 
every case by taking it 2 years, we would continue to have the 
backlog which I got rid of. So I understand what you are up 
against, and I want to compliment you on having apparently 
arranged to get the Mental Health Agency back, as I understand 
it, as of April 2001--is that when it's due to come back?
    Ms. Lopes. That's correct.
    Ms. Norton. We know that on its own--because it did such an 
extraordinary job because public housing is back. I know that 
you are beginning discussions to get this agency back. You said 
that these are very complex discussions, but you gave us no 
idea of what those complexities were.
    So I would like to give you the opportunity to let us know 
some of what you're up against. Are you trying, for example, to 
somehow meet the requirements that the court laid out which 
would be, obviously, almost impossible; or are you trying to do 
a transition plan that would leave the District with the 
responsibility for meeting what the receiver was unable to meet 
on her own, in part because she didn't even have jurisdiction 
over many of the agencies involved? If you could lay out some 
of the complexities for us, it would give us a greater 
appreciation for what you and the city are up against.
    Ms. Lopes. Certainly. We are in discussions that really 
address the latter issue; and that is, what are the conditions 
upon which the transfer of day-to-day operations will revert to 
the Mayor, not modification of the MFO which is a subsequent 
issue and an issue that the District is very interested in 
tackling. But initially, the threshold issue and the issue that 
we want to resolve as quickly as possible is under what 
conditions can we get the agency back, and it is that agreement 
that I am trying to broker.
    Ms. Norton. Do you have any notion of--have you set for 
yourself a deadline by which the city would want to have this 
agency back under the jurisdiction of the District of Columbia, 
recognizing that you obviously have to get the court and 
everyone involved to agree to that?
    Ms. Lopes. By the end of the year. If we don't have an 
agreement by October 18, we will be prepared to litigate.
    Ms. Norton. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Davis. Thank you very much. I would like to thank again 
our witnesses for participating in this hearing. I want to 
thank Tom DeLay for his assistance and his ongoing leadership, 
as well as Chairman Burton. I want to thank Ms. Norton, Mrs. 
Morella, and Mr. Horn for participating.
    I look forward to receiving an emergency plan from all the 
parties involved in this situation. It's a goal that we can 
bring this issue to a close without requiring further 
congressional intervention. If that's not the case, my 
colleagues and I will consider all options available to us to 
bring the receivership to a close.
    There is no further business before the subcommittee today. 
This hearing is adjourned.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T4760.045

[GRAPHIC] [TIFF OMITTED] T4760.046

[GRAPHIC] [TIFF OMITTED] T4760.047

[GRAPHIC] [TIFF OMITTED] T4760.048

[GRAPHIC] [TIFF OMITTED] T4760.049

[GRAPHIC] [TIFF OMITTED] T4760.050

[GRAPHIC] [TIFF OMITTED] T4760.051

[GRAPHIC] [TIFF OMITTED] T4760.052

[GRAPHIC] [TIFF OMITTED] T4760.053

[GRAPHIC] [TIFF OMITTED] T4760.054

[GRAPHIC] [TIFF OMITTED] T4760.055

[GRAPHIC] [TIFF OMITTED] T4760.056

[GRAPHIC] [TIFF OMITTED] T4760.057

[GRAPHIC] [TIFF OMITTED] T4760.058

[GRAPHIC] [TIFF OMITTED] T4760.059

[GRAPHIC] [TIFF OMITTED] T4760.060

[GRAPHIC] [TIFF OMITTED] T4760.061

[GRAPHIC] [TIFF OMITTED] T4760.062

[GRAPHIC] [TIFF OMITTED] T4760.063

[GRAPHIC] [TIFF OMITTED] T4760.064

[GRAPHIC] [TIFF OMITTED] T4760.065

[GRAPHIC] [TIFF OMITTED] T4760.066

[GRAPHIC] [TIFF OMITTED] T4760.067

[GRAPHIC] [TIFF OMITTED] T4760.068

[GRAPHIC] [TIFF OMITTED] T4760.069

[GRAPHIC] [TIFF OMITTED] T4760.070

[GRAPHIC] [TIFF OMITTED] T4760.071

[GRAPHIC] [TIFF OMITTED] T4760.072

[GRAPHIC] [TIFF OMITTED] T4760.073

[GRAPHIC] [TIFF OMITTED] T4760.074

[GRAPHIC] [TIFF OMITTED] T4760.075

                                   - 

</pre></body></html>
